<html>
<title> - FEMA: PREPAREDNESS FOR THE 2009 HURRICANE SEASON</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
            FEMA: PREPAREDNESS FOR THE 2009 HURRICANE SEASON

=======================================================================

                                (111-28)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 1, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
49-949                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Almaguer, Ruben D., Deputy Director, Florida Division of 
  Emergency Management...........................................     6
Hagan, Karen E., Disaster Officer, Florida, American Red Cross...     6
Lord, Jonathon, Assistant Director on Behalf of Curt Summerhoff, 
  Interim Director, Miami-Dade Department of Emergency Management 
  and Homeland Security..........................................     6
May, Major Phil, Regional Administrator, Region IV, Federal 
  Emergency Management Agency....................................     6
Rappaport, Edward N., Deputy Director, NOAA National Hurricane 
  Center.........................................................     6

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Almaguer, Ruben D................................................    42
Hagan, Karen E...................................................    47
May, Major Phil..................................................    56
Rappaport, Edward N..............................................    70

                       SUBMISSIONS FOR THE RECORD

May, Major Phil, Regional Administrator, Region IV:..............
      Responses to questions for the record......................    63
      Chart of public assistance appeals.........................    68
Summerhoff, Curtis, Interim Director, Miami-Dade County 
  Department of Emergency Management and Homeland Security, 
  written testimony..............................................    52

[GRAPHIC] [TIFF OMITTED] T9949.001

[GRAPHIC] [TIFF OMITTED] T9949.002

[GRAPHIC] [TIFF OMITTED] T9949.003

[GRAPHIC] [TIFF OMITTED] T9949.004

[GRAPHIC] [TIFF OMITTED] T9949.005



      HEARING ON FEMA: PREPAREDNESS FOR THE 2009 HURRICANE SEASON

                              ----------                              


                          Friday, May 1, 2009

                   House of Representatives
              Subcommittee on Economic Development,
                  Public Buildings and Emergency Management
                     Committee on Transportation and Infrastructure
        Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
the Media Room of the James L. King Federal Justice Building, 
99 Northeast 4th Street, Miami, Florida, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Present: Representatives Norton and Diaz-Balart.
    Ms. Norton. I'm pleased to call the hearing to order. We're 
pleased to be in sunny Miami, ahead of the hurricane season. We 
think, we hope before a hurricane season, and we would like to 
keep our advantage of the hurricane season for the coming year. 
But we can't do that by fiat, so we've come to Miami to see 
what is being done here, and what we have been doing around the 
country to be prepared.
    We are pleased to welcome today's witnesses to this hearing 
concerning an important issue for both Florida, and the Nation, 
as we seek information on preparedness for the upcoming 
Atlantic Hurricane Season. My thanks to the Ranking Member, Mr. 
Mario Diaz-Balart for recommending this hearing, and inviting 
us to South Florida, a location that we have chosen for our 
first hearing in preparation for the hurricane season, not only 
because of Miami's location, but, also, because of the 
leadership this area of the state has had in preparedness and 
mitigation. Because our Subcommittee has primary jurisdiction 
over the Federal Emergency Management Agency, or FEMA, this is 
our first hearing ahead of the hurricane season for the 
country.
    The Atlantic hurricane season runs from June 1st through 
November 30th. The catastrophic hurricane, and the failure of 
the government on the Gulf Coast after Hurricane Rita, and 
Hurricane Katrina have captured worldwide headlines in recent 
years; but, unfortunately, Florida's hurricanes have also been 
legendary. Hurricane Andrew's devastating effects in 1992 is 
one example. While hurricanes are not the most frequent 
disasters our nation faces, they probably are the most 
notorious, and they are often the most catastrophic.
    Louisiana and Mississippi notwithstanding, Florida faces a 
greater risk from hurricanes than any other state. Since 
Hurricane Andrew struck in 1992, Florida has received 22 major 
disaster declarations, and eight emergency declarations under 
the Stafford Act for hurricanes or tropical storms, a greater 
number of declarations than for any other state during the same 
period. In dollar terms, FEMA has spent about $10 billion on 
these disasters and emergencies; and, of course, that does not 
include costs borne by state and local governments, insurance, 
and voluntary agencies, and certainly by local citizens, 
themselves.
    The State of Florida and Miami-Dade County are recognized 
as leaders in emergency management, especially in mitigation 
and preparedness. Unfortunately, a great deal of this expertise 
comes from experience. But since the Miami area was devastated 
by Hurricane Andrew, Florida has taken many steps to improve in 
all areas of emergency management. One example is Florida's 
state-wide building code. The requirements in Miami-Dade County 
are the most stringent, generally requiring buildings to 
withstand winds of up to 146 miles per hour. Schools and other 
facilities that could be used as shelters are required to 
withstand winds of up to 186 miles per hour.
    The best way to protect citizens who face the risk of 
hurricanes is to help make sure their homes, schools, and other 
facilities so they can withstand these storms through 
mitigation beforehand. As we have heard in other hearings of 
our Subcommittee, mitigation is an investment that surely 
works. This week, the House passed H.R. 1746.
    [The Bill H.R. 1746 appears on p. :]
    Ms. Norton.--that Mr. Diaz-Balart and I co-sponsored to re-
authorize the Pre-Disaster Mitigation program. Studies have 
shown that mitigation, including pre-disaster mitigation, 
return three to four dollars for every dollar invested in the 
program.
    While empirical studies are useful, it is also important to 
show tangible results. A specific example of mitigation 
occurred just north of here. In 2005, FEMA provided Pre-
Disaster Mitigation program funds to finance roll-down storm 
shelters at five fire stations in Broward County, Florida. Soon 
after completion of the project, Hurricane Wilma struck 
Florida. The retrofitted fire stations not only were not 
damaged, but they were able to operate effectively during and 
after the storm.
    Mitigation can reduce the vulnerability of homes and other 
structures, but it is also imperative that citizens are 
prepared for the risks they face. Florida is a leader here, as 
well. As Floridians know well, citizens must take personal 
responsibility for preparedness for themselves, and their 
families, especially in the initial days after a disaster when 
responders have limited means, and will need to focus on the 
most severely impacted, and the most vulnerable. Governments 
and non-profits do have an important role to play in 
preparedness, in particular, providing citizens the information 
and tools they need to prepare, and often to survive. Here, 
culturally and linguistically-rich South Florida is presented 
with a challenged that government has stepped up to meet.
    Floridians who faced an unusual tornado recently, are aware 
that when citizens prepare, they are preparing not only for 
hurricanes, but for all hazard, or all the risks they face. 
What is necessary to prepare for a hurricane is, essentially, 
the same as one needs to prepare for a tornado, aa power 
outage, or even the so-called Swine Flu, or what we hope will 
never occur, a terrorist attack.
    Today we are pleased to hear from government officials at 
the federal, state, and local levels, and from the Red Cross, 
all of whom play vital roles in preparing our citizens, 
especially the most vulnerable, for whenever disasters may 
strike. We thank you all for your testimony, which will help 
citizens prepare for upcoming hurricanes, should they occur.
    I'm very pleased to ask our Ranking Member, Mr. Diaz-
Balart, if he has any opening statements.
    Mr. Diaz-Balart. Thank you, Madam Chair. Let me first thank 
you for not only coming down here, but for your leadership.
    One of the things that you will all see is that, which I 
guess is relatively unusual, is the fact that Joan and I work 
exceedingly close together. We are friends. I am not only an 
admirer of her leadership, and I think you'll see today that 
she is tough, but fair, and always on the forefront making sure 
that we are as prepared, as possible.
    I also want to thank all the witnesses here today from 
FEMA, the Red Cross, the National Hurricane Center, Florida 
Division of Emergency Management, Miami-Dade Department of 
Emergency Management, and, also, Homeland Security. I know how 
much work you've all done, and you do, and I really appreciate 
you being here today.
    I think it's fitting and timely that, as the Chairwoman 
says, as hurricane season approaches, that we examine hurricane 
preparedness here in Florida. As many, I think, recognize, the 
week of May 25th through 31st is recognized as National 
Hurricane Preparedness Week. I just this week dropped a 
resolution to Congress which, once again, recognizes that 
Preparedness Week, and also tries to remind people that this is 
coming, once again. And, hopefully, helps you all to make sure 
people listen, we've got to do all we can.
    From Hurricane Andrew to more recent hurricanes, such as 
Charlie, Wilma, and Ivan, Florida has, unfortunately, as the 
Chairwoman said, seen its fair share of hurricanes and natural 
disasters. Now, imagine, however, a large Category 5 coming 
here towards Florida, and making landfall just north of Fort 
Lauderdale. Now, the storm then travels northwest as a Category 
4, and causes a breach of the Herbert Hoover Dike at Lake 
Okeechobee. The hurricane then spends 36 hours over land, 
causing tornadoes, and more destruction, and then moves off to 
the Gulf of Mexico, before, once again, getting strong and 
making landfall on the Gulf Coast of Alabama.
    This is a scenario laid out for Hurricane Ono. Is that the 
right name, I believe? Hurricane Ono, as a model for 
catastrophic disaster planning here in Florida, Madam 
Chairwoman. Now, such a scenario could occur. The consequences 
would be devastating. It would require the evacuation of three 
million people, most of south Florida would be under one to 
four feet of water for weeks, actually. And homes of about 70 
percent of the population would be destroyed; and, obviously, 
millions would be without electricity.
    This scenario is not that farfetched. In fact, Hurricane 
Ono is modeled after the path of the great Miami Hurricane of 
1926. After that hurricane, there were reportedly 373 deaths, 
and over 6,000 injuries, with 800 missing. Now, obviously, 
today, this is a different south Florida. There are a million 
more residents in the area, and much more development than 
there was in 1926. So a hurricane similar in strength and path 
would, frankly, create significantly more devastation, and 
probably loss of life.
    This scenario is why preparedness and mitigation is 
critical to saving lives, and protecting property. I'm really 
pleased that the Florida Catastrophic Planning Initiatives, 
sponsored by FEMA again in 2006, and continues collaboration 
and collaborative workshops to identify and address gaps and 
challenges in the planning process.
    Now, as you said, Madam Chairwoman, Floridians, 
unfortunately, know all too well the devastating effects of a 
hurricane. And, also, the importance of preparation. We all 
have our stories to tell about that. Florida state agencies, 
counties, local communities, and citizens have done, and 
continue to do, an extraordinary job in preparing for the 
disaster. We can always do better, though. Local communities 
have offered mutual aide and help, and assistance to one 
another, regardless of boundaries, or even funding.
    I specifically recall running into, for example, the mayor 
of a city here, a small city here of Doral, Mayor Bermudez. I 
ran into him in a different city--in Medley helping. Medley 
actually had gotten devastated. He wasn't asking who is going 
to pay for this, or what. It was just, how can we help? I mean, 
you see other people. I also recall personally seeing a county 
commissioner in Collier County, Commissioner Colleta, going 
door to door before Hurricane Wilma in trailers, just telling 
people, guys, evacuate. This is a big one. So, again, Florida 
and Floridians recognize the importance of preparedness, 
because, unfortunately, we've experienced it first-hand.
    I'm also, by the way, really pleased that Craig Fugate is 
now the President's Nominee to be the Administrator of FEMA. As 
Director of Florida's Division of Emergency Management, he has 
extremely--I mean, he has a lot of hands-on experience that 
gives him the knowledge and expertise to effectively lead FEMA. 
Obviously, when state and local resources are overwhelmed 
because of a major catastrophe or storm, and communities are 
trying to figure out how to recover and rebuild from a major 
disaster, FEMA needs to provide the resources, and the 
expertise that help communities get back on their feet.
    Now, while FEMA's role in disaster response and recovery is 
critical, just as important is insuring that there is proper 
preparedness and mitigation. Good emergency management, as it 
relates to disasters like hurricanes, must happen before the 
incident, and not after. Preparedness before a disaster can 
dictate how effective the response is, and how well things go 
after that, as the Chairwoman was just saying. And, obviously, 
mitigation is a key factor in effectively preparing for 
disaster.
    FEMA programs, such as the Pre-Disaster Mitigation program, 
and the Hazard Mitigation Rent programs are important elements 
in advancing the goals of mitigation. CBO has determined that 
for every dollar invested in mitigation, $3 are saved. I 
believe the Chairwoman has talked about that more specifically. 
So, insuring that these mitigation programs are funded, and 
administered appropriately, can go a long way in saving 
taxpayers dollars. And, obviously, citizens here in Florida 
know the value and importance of preparing for a disaster, even 
though we can all do a lot better.
    We understand the benefit of mitigation, and the savings 
realized when appropriate measures are taken to minimize the 
impact of disasters, like hurricanes. Part of preparedness, 
however, is also planning for the response and recovery. As we 
saw after Hurricane Katrina, you can't wait until the storm 
hits to have measures in place to respond, and to recover from 
disasters. Now, one of the biggest lessons from Katrina, 
learned from Katrina, was the importance of having a FEMA that 
is agile, quick, independent, which is why I'm one of the 
supporters of Chairman Oberstar's FEMA Independence Bill.
    During Craig Fugate's nomination hearing last week, he 
pointed out the crucial issues that also housing can play in 
major hurricanes, such as the case similar to Hurricane Ono, 
which would result in the need for a half a million housing 
units. That's hard to conceive. That's about what we needed 
after Hurricane Katrina. We're still trying to resolve the 
housing issues in Louisiana, nearly four years after the storm. 
So, do we have a housing plan in place should such a storm hit 
here in Florida this season? We must, as Craig said, look at 
the worst case scenario, and identify the gaps that exist 
before a hurricane strikes.
    The National Disaster Housing Strategy was released in 
January this year, and last week, FEMA issued its 2009 Disaster 
Housing Plan. The plan highlights a four-pronged approach to 
respond to housing needs following disasters. However, we must 
insure that specific plans for housing are in place in advance, 
before the hurricane season, which is, obviously, already upon 
us. For example, if the worst case scenario happened here in 
Miami, how many beds would we have available? What kind of 
temporary housing would be used, and who's responsible for 
what? I hope that the planning initiative, such as those 
undertaken under the Hurricane Ono example, are helping to 
answer these questions.
    In addition, we have also learned that we must be smarter 
and fuller thinking with new technology to help preparing for 
the mitigation against disasters, such as hurricanes. I am very 
proud of the cutting edge research done at many of our local 
universities on forecasting and mitigation, along with, 
obviously, the Hurricane Center. FIU, for example, has done 
great work. It's derived critical data on building code 
standards and mitigation. They have this, which if we had some 
more time, I would love to show you. They have this wall of 
wind, and they actually replicate wind, and you see roofs 
flying off, and the windows blowing in and blowing out. It's a 
thing to see. Adopting reasonable building codes and using as 
many methods of communication as possible to warn the public of 
a disaster coming are just a couple of steps that we should 
take to further reduce risk to life and property.
    That's why I'm proposing legislation, and I will encourage 
states to develop and implement building codes, like the one 
Florida currently has in place. Again, reasonable building 
codes, as the Chairwoman has said, would go a long way to 
minimize damage to homes, businesses, and the cost to the 
taxpayers. Allow Chairwoman Norton and others on this 
Subcommittee, there is legislation that will create a framework 
for FEMA to move forward in developing integrated public alert 
and warning systems. We're still relying on old technology 
there. And, right now, with Facebook, and Twitter, and 
everything else, we've got to make sure that we're 
communicating as well as we can, so instead of taking advantage 
of new technologies, like cell phones and satellites, we've got 
a long way to go, because we're not doing it. So, there's, 
obviously, no excuse to not employ as many methods of 
communication as possible to warn the public of an imminent 
disaster. So, we're working on that, and we continue to take 
more steps.
    A lack of effective warning can easily undermine 
preparedness for a disaster. The more ways in which the public 
can be alerted to a disaster, obviously, the better the people 
will react. So, the bottom line is that there are many moving 
parts, and many, many key issues that must be addressed to be 
adequately prepared for hurricane season. And we must insure 
that we properly plan for, and address them in a coordinated 
fashion. So, I look forward to hearing from all of you today. I 
really appreciate you being here, and I want to once again 
thank the Chairwoman for being here. I know what her schedule 
is. You all need to understand that this is a very busy person.
    Madam Chairwoman, I leave you with one more thought, which 
is, as you stated, we always have to do better, but nobody does 
it better than here in Florida, because of that cooperation 
between state, local, and federal agencies. So I am ecstatic 
that you're here in particular right now, right before the 
hurricane season, and I look forward to the testimony. Thank 
you so much, Madam Chairwoman.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart.
    I want to begin by setting the stage by hearing directly 
from the national Hurricane Center, NOAA's National Hurricane 
Center. And I'm pleased and look forward to hear the testimony 
from Dr. Edward Rappaport, Executive Director.

TESTIMONY OF MAJOR PHIL MAY, REGIONAL ADMINISTRATOR, REGION IV, 
   FEDERAL EMERGENCY MANAGEMENT AGENCY; EDWARD N. RAPPAPORT, 
    DEPUTY DIRECTOR, NOAA NATIONAL HURRICANE CENTER; RUBEN 
   ALMAGUER, DEPUTY DIRECTOR, FLORIDA DIVISION OF EMERGENCY 
MANAGEMENT; KAREN HAGAN, DISASTER OFFICER FLORIDA, AMERICAN RED 
  CROSS; JONATHON LORD, ASSISTANT DIRECTOR ON BEHALF OF CURT 
    SUMMERHOFF, INTERIM DIRECTOR, MIAMI-DADE DEPARTMENT OF 
           EMERGENCY MANAGEMENT AND HOMELAND SECURITY

    Dr. Rappaport. Thank you. Good morning, Madam Chairwoman, 
and Ranking Member Diaz-Balart. Thank you for your support of 
NOAA, the National Weather Service, or NWS, and our Hurricane 
Program. Your support enables us to make the best forecast 
possible, and allows us to help the people of our nation 
understand the potential effects of hurricanes, and the actions 
they can take to protect life and property. Today, I will 
discuss NOAA's role in forecasting, warning, and helping the 
public prepare for hurricanes.
    The services and information provided by the NWS are built 
upon an infrastructure of environmental sensors, including 
satellites, aircraft and buoys, computer analyses and 
simulations, and advanced communication systems. Our staff 
comprises topnotch scientists and technical experts who 
maintain almost continuous interactions with our users. Nowhere 
is that more evident than in the Hurricane program.
     Tropical cyclone forecasts are issued from the NWS 
National Hurricane Center, or NHC, every six hours, and more 
frequently during landfall threats. These forecasts include 
text messages and supporting discussions, as well as a suite of 
graphical products depicting our forecasts, accompanying 
probabilities, and the ``cone of uncertainty'', as it has 
become known. The NHC is responsible for predicting the path 
and intensity of the storm, issuing costal hurricane watches 
and warnings, and describing broadly the weather conditions 
expected, including projected storm surge levels, as displayed 
in the handouts that you have, and the poster that we provided, 
as well.
    NWS weather forecast offices, or WFOs, also play a critical 
role in the hurricane forecast and warning process. WFOs use 
their local expertise to refine NHC advisories, and provide 
specific, detailed information about the effects from the 
hurricane. These include more details about storm surge 
inundation levels, and local watches, warnings, and advisories 
covering their local forecast area responsibility. Local 
emergency managers use this information when making evacuation, 
and other preparedness decisions.
    The NHC and WFOs disseminate their vital information 
through a broad range of methods, including the media, 
commercial weather sector, and the internet. These 
complementary sources enhance public awareness of the hurricane 
threat.
    Working with and communicating our forecast information to 
emergency managers is essential. Recognizing the need for 
coordinating with a large number of federal, and state-level 
emergency managers when hurricanes approach land, FEMA, and the 
NWS established a Hurricane Liaison Team in 1996. The team is 
made up of federal, state, and local emergency managers, and 
NWS meteorologists and hydrologists who have extensive 
hurricane operational experience. The team is strategically 
activated well in advance of potential storm impact to provide 
the proper coordination of critical information between the NHC 
and the emergency management community at the federal and state 
levels.
    In addition to storm-specific information, we work year-
round with emergency managers to educate them about weather 
effects from hurricanes. In turn, they educate us about 
response issues, and their challenges. It is a constant 
learning process, and the key is working together to insure the 
public takes appropriate action.
    This week, for example, NHC Director Bill Read has been at 
the Gulf Coast States Hurricane Conference. On Monday, he will 
be in Washington providing a Hurricane Basics briefing to 
cabinet members, and the narrative for a tabletop exercise 
developed with FEMA. One of our outreach activities is NOAA's 
Hurricane Awareness Tour, that alternates annually between the 
Gulf Coast and the Atlantic Coast. The tour raises hurricane 
awareness among our partners, and the public. This year's tour 
takes place next week beginning in New Hampshire, and ending in 
Key West. The NHC and WFOs also participate in national 
hurricane preparedness meetings, and many state-level sessions, 
having tabletop exercises, including an annual State of Florida 
hurricane exercise. These drills are designed to build pre-
storm expertise for emergency managers.
    Coordination and communication at the local level are also 
critical. During the past year, for example, NWS offices across 
the State of Florida, in Tallahassee, Jacksonville, Melbourne, 
Tampa, Key West, and here in Miami, gave numerous 
presentations, on-line chats, and training classes to discuss 
weather, and the potential effects from hurricanes and other 
tropical systems. These outreach efforts raise awareness, and 
are designed to teach people how to prepare for the storms long 
before they form.
    Another example of the training we provide is an 
``Introduction to Hurricane Preparedness'' course. For more 
than 15 years during the winter, non-hurricane season, FEMA and 
NOAA have coordinated to teach the course at NHC. This course 
has trained more than 1,000 coastal emergency managers and 
local decision makers since the program began.
    In conclusion, I would like to state that the NHC hurricane 
track forecasts continue to increase in accuracy. Nevertheless, 
no matter how accurate our forecasts, our communities need to 
hear the forecasts and warnings, and then know what actions to 
take. In this regard, the combined preparedness, education, and 
communication efforts of the NWS, DHS/FEMA, state and local 
emergency management officials and decision makers, and the 
media have been key advances in safeguarding the lives and 
property of our citizens during the past several decades. These 
partnerships will remain critical in our efforts to minimize 
future losses caused by these forces of nature. I am happy to 
answer any questions that you may have for me.
    Ms. Norton. Thank you very much, Dr. Rappaport.
    Let me ask you straight out, Dr. Rappaport, this is now the 
beginning of May. June 1st begins the Atlantic Hurricane 
Season. Forecast for us all you do for hurricanes in this 
region in the coming session. What can you tell us as 
specifically as you can what is going to happen, if you know.
    [Laughter.]
    Mr. Diaz-Balart. Easy question.
    Dr. Rappaport. Thank you for the question. Perhaps, to 
clarify, NOAA's Climate Prediction Center has the lead for the 
federal government in generating the annual seasonal hurricane 
forecast. That process now is under development and the-
    Ms. Norton. Dr. Rappaport, this is a month ahead of time. 
That means we could have a hurricane June 1st. Heaven knows, 
I'm not wishing that on Florida, or any other part of the 
country. I was on this Committee during the debacle of Katrina. 
When you say a month ahead of time we are still in preparation, 
or are hurricanes such that they only develop so that you 
cannot forecast even a month ahead of time?
    Dr. Rappaport. I'll answer the second question first. We 
are not at the stage yet where we can make forecasts a month 
ahead of time.
    Ms. Norton. When are forecasts developed? Do we have time. 
We have timed this hearing because we are pretty close to 
hurricane season. And if a month ahead of hurricane season we 
are unable to make any prediction about the coming hurricane 
season in the state that has had the largest number of 
hurricanes in recent memory, then I need to know what we need 
to do in order to make hurricane predictions sooner, or I need 
to know whether that is something impossible, because of the 
way hurricanes develop.
    Dr. Rappaport. I appreciate the question, and the comments.
    As it turns out, hurricanes have occurred in the Atlantic 
hurricane basin in every month of the year. If you go back 
historically, you'll find a hurricane and tropical storm in 
every month. The traditional hurricane season, though, begins 
in June, because that is the time when there begins to be an 
increase. Typically, there are few, if any, storms or 
hurricanes before June. The most active period is actually 
August, September, and October.
    One of the reasons for making final adjustments to the 
forecast now is to have in-hand the latest information about 
what is going on in the atmosphere at this time, and in the 
oceans, so that we can have the best forecasts possible at the 
start of when hurricanes actually will begin. So, at this 
stage, while a forecast could be made, it's likely not to be as 
good as one made several weeks from now, when we have the most 
recent information, because the atmosphere does change.
    Ms. Norton. The only reason I ask this question, Dr. 
Rappaport, is because of an article that appeared this week in 
the Wall Street Journal questioning the reliability, indeed, 
the utility of a seasonal hurricane forecast. You suggested 
that there was not sufficient historical information to make 
reliable predictions. That's why I'm asking you questions. I 
not only asked was there a prediction, but whether it's 
possible to make a prediction. I know science can do what it 
can do. I mean, maybe hurricanes don't develop such that one 
can predict, but the public needs to know, or how far in 
advance, particularly in a hurricane prone region, to expect 
some warnings. I ask this question because we are emphasizing 
to the public, it's not our responsibility alone. It's not your 
responsibility alone. But without good information, then it 
becomes nobody's responsibility.
    Dr. Rappaport. Yes. NOAA has two components that make 
predictions for hurricanes. The Climate Prediction Center will 
provide the overall seasonal forecast within the next few 
weeks. However, the state of the science has not reached the 
point yet where they can say which areas are going to be 
affected. So, even if we knew accurately how many storms will 
occur, that's not really as important as knowing which areas 
are going to be affected, and when, and how strong will the 
storm be.
    Because of that, because the science is not evolved to that 
point yet, we recommend that all areas in the hurricane zone 
prepare for a possible strike in a given year. And the best 
time to do that is now, and meetings and hearings, such as 
today's, provide visibility that's important to the hurricane 
risk problem. It's much better for the public to prepare now, 
shortly before hurricane season, than in the frantic moments 
when a hurricane is at their doorstep.
    Ms. Norton. Now, the hurricane zones, the places that 
should be preparing now are? Can you name them?
    Dr. Rappaport. The United States, for the contiguous United 
States it's from Texas all the way to Maine along the coast. 
We've had hurricanes as far inland as about 150 to 200 miles. 
The most significant component of a hurricane is storm surge, 
and those are the maps that you now have in front of you. And 
we have several different examples of where the risk areas are.
    Mr. Diaz-Balart. There's one here I think is showing the 
eye.
    [Laughter.]
    Dr. Rappaport. Perhaps, just by coincidence we have some 
charts for the Miami area, and for the National Capitol region. 
And we can discuss those, if you would like.
    Again, to emphasize, we don't yet have the skill to predict 
the numbers of storms with high accuracy, but I will say, it's 
my personal perspective that the seasonal forecasts, while not 
being as precise, perhaps, as our short-range forecasts issued 
by the National Hurricane Center, do tend to lean the right way 
each year.
    Ms. Norton. You say they have increased in accuracy. What 
has allowed you to increase in accuracy. After Katrina, were 
their findings that were directed specifically on accuracy? 
Although, I must say, the problem with Katrina was not the 
prediction. I think NOAA was right. It was the government, 
state, local, federal who did not step up fast enough. Could 
that happen again? I mean, that's why I'm making--how much 
ahead of time did you predict the hurricane there before that 
catastrophe struck.
    Dr. Rappaport. In 2003, the National Hurricane Center 
extended its forecast range from three days to five days, 
because of continuing improvements in our forecast accuracy. 
Indeed, over the last 15 years, the accuracy of our forecast 
tracks, or the errors, let's say, of our forecast tracks, where 
the storm is going to go, have been cut in half. So, in the 
case of Katrina, for the last 60 hours or so before landfall, 
the forecast indicated a landfall in southeast Louisiana, a 
progression up to the Mississippi coast of what would be 
considered a major hurricane, at least Category 3 intensity. 
So, the forecast for Katrina in the last two and a half days 
was spot-on, and did not vary.
    That said, we still have a ways to go. While track 
forecasts continue to improve, our forecasts for intensity are 
much more challenging. And, in fact, that is the component of 
forecasting that we've highlighted for the research community 
as the area we need the greatest help for.
    With that in mind, we're grateful to the Congress for 
providing $17 million for this fiscal year for what's become 
known as NOAA's Hurricane Forecast Improvement Project. That 
project is intended to cut the errors, not only for track, but 
intensity, in half, by another 50 percent within 10 years. The 
intent there is to use those resources to enhance our computing 
capability, to develop better models and simulations, to get 
new observing platforms, and to do what's called a transition 
process from research into our operations of the National 
Hurricane Center. So, there is effort within NOAA's research 
arm, as well, to work on the Hurricane Forecast Improvement 
Project.
    Ms. Norton. I'm going to ask Mr. Diaz-Balart if he has any 
questions at this time.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. I first have 
a confession to make, I almost didn't recognize him when I 
walked in because I've never seen him so rested. Usually, I see 
him at the Hurricane Center after not sleeping for a few days, 
so, seriously, I almost didn't recognize you, you look so fresh 
and rested.
    Dr. Rappaport. Thank you.
    Mr. Diaz-Balart. In my opening remarks, I described the 
worst case scenario with regards to a hurricane. And I 
understand that that was modeled after the big one of 1926, the 
Great Hurricane. What do you think the probabilities are that a 
similar Category 5 will actually make landfall in Florida in 
the coming year, whenever that might be. Is that something 
that, is it going to happen? Is it an issue of not if, but 
when, or not really?
    Dr. Rappaport. It really is a matter of when. We do look 
back at the historical records as an indicator of what's to 
come. We can derive some statistics to take a look at what's 
the likelihood of getting a Category 5 hurricane. 
Unfortunately, for you and us, and everybody in this area, 
south Florida has the greatest risk. In fact, what we call the 
return period, how often we should expect a Category 5 
hurricane in our area is every 33 years. That doesn't mean that 
we would be hit directly by a Category 5, but it means that one 
will be passing close-by, at least.
    Now, if you expand that to include the rest of the state, 
you can see that we have a very significant risk of having a 
Category 5 hurricane again in our lifetimes. The risk does 
decrease as you go farther north, so, for example, the 
Washington, D.C. area, the likely most intense hurricane to 
expect there would be a Category 2, and that would on the order 
of once in 100 years. That doesn't mean we have 100 years to 
wait. It could come this year. We could get two this year. But, 
on average, that's the kind of frequency that we're looking at. 
So, for south Florida, we're looking at a major hurricane in 
our vicinity roughly every 10 years or so, and a Category 5 
hurricane, like Andrew, in our area three times a century, 
every 33 years or so.
    Mr. Diaz-Balart. That's a scary proposition. You 
highlighted in your testimony, and you kind of mentioned about 
it, as well, about how you disseminate warning information, and 
information in general. And, as I mentioned, I plan to 
introduce legislation that will provide a framework for the 
development of an integrated public alert and warning system, 
hopefully, dealing with new technologies that are available, et 
cetera. I would love to work with you if you have any 
suggestions, not necessarily now, but if you have some now as 
to what you think are some of the elements that should be part 
of that system. I don't know if you have some recommendations 
or have any thoughts, but also continue to work with you as we 
go along.
    Dr. Rappaport. We would be pleased to work with you. As I 
mentioned, the major components for improving the technical 
part of our work, the hurricane forecasts, are computing 
capabilities, the computer models that we rely very heavily on, 
the data that goes into the research that builds up all those 
activities. And then making sure that those advances get their 
way to the Forecast Operations, both here at the National 
Hurricane Center, and in our Weather Forecast Offices. And 
we'll look forward to working with you on that.
    Mr. Diaz-Balart. Thank you, sir. You also have in your 
testimony that FEMA and the National Weather Service, 
obviously, the Hurricane Liaison Team in `96, federal, state, 
and local emergency managers along with other experts. Can you 
talk a bit more about that, and how it operates in disasters, 
and what planning is done by this team to prepare for a 
hurricane?
    Dr. Rappaport. In advance of a hurricane, typically, on the 
order of two days before, this team will be activated, which 
includes bringing in experts from around the country to augment 
our staff. And what it allows us to do is have both emergency 
managers, and meteorological experts on site, kind of speaking 
their languages to each other, and then communicating to those 
outside of our facility. We do that via video teleconference to 
the various preparedness agencies. It could be in the state, or 
in the federal government, through, occasionally, through the 
White House. These are daily briefings, but more frequent, as 
necessary. And it allows us to have a situational awareness 
where all parties are listening, and talking with the same 
information, at the same time. They're able to see what each 
other's problems are, what the issues are, and contribute, we 
hope, to minimizing those problems.
    Mr. Diaz-Balart. Thank you, sir. A couple of more 
questions, Madam Chairwoman?
    Ms. Norton. Continue, sir.
    Mr. Diaz-Balart. Kind of going off the Chairwoman's 
question, she was talking about Katrina and New Orleans, how 
much advance notice did they have. How much time, usually, does 
a community have notice-wise to know that something is coming 
their way? Obviously, I know that the cone gets smaller and 
smaller, but usually what's that time frame that a community 
has to know, hey, the chances are this is going to hit us? 
What's that time?
    Dr. Rappaport. It could vary a little bit, but I'd like to 
commend you, because of the preparedness that we have in south 
Florida, Floridians, especially down here in south Florida, 
seem to be watching and knowing when there's a hurricane moving 
off the coast of Africa, and they've got two weeks of notice.
    Mr. Diaz-Balart. Oh, yes, we watch.
    Dr. Rappaport. As the storms approach the coast, however, 
our forecasts go out five days in advance, so you do get some 
indication that there's at least a potential risk for your area 
that far in advance. The information becomes more specific, and 
what we call hurricane watches and warnings are issued 
beginning roughly two days in advance. The definition of a 
warning, of a hurricane warning is that hurricane conditions 
are expected in your area within the next 24 hours, or perhaps 
a little bit greater than that. That's really your call to take 
action now. And the 24 hours was actually designed to ensure 
that everybody had at least 12 hours of daylight to take those 
actions. Those actions will vary, of course, depending on your 
vulnerability, and your location, and the intensity of the 
storm. And we depend very highly on the media to get the word 
out, and our colleagues in emergency management to provide the 
additional information to the public that interprets the 
meteorology so they can make their decisions.
    Mr. Diaz-Balart. I would imagine that there's a lot less 
sense of urgency as you go more north up the coast. Obviously, 
those areas that are expecting it have recently received 
damage. I'm sure in Florida-- I see a storm out there, and I 
start getting nervous. But I imagine that it's a lot less sense 
of urgency as you go up north. I don't know how you do that, 
because if you haven't got hit by one, you don't really take 
them that seriously.
    Dr. Rappaport. Right. Fortunately, there is likely 
significant difference in how the public perceives a hurricane 
in those areas, and how the emergency management officials and 
our colleagues in the weather forecast offices perceive them. 
Yes, there are two sides to this. By living farther north where 
the hurricanes come less frequently, that's good news. But when 
it does come, you may not be as well prepared. Fortunately, the 
local weather forecast offices of the Weather Service, and the 
emergency management officials all the way up the coast are 
doing the same kind of preparations that we do here in south 
Florida. It just may not be quite as visible, but they have 
their plans ready, as well, should a storm approach.
    Mr. Diaz-Balart. And, lastly, Madam Chairwoman. These maps 
are a little scary. Could you just kind of describe a little 
bit of what we have here?
    Dr. Rappaport. Sure.
    Mr. Diaz-Balart. I guess, we should look at Category 5, 
which is the most-
    Dr. Rappaport. Okay. There are two different depictions of 
Category 5. Let's look at the one that has in white the various 
locations labeled.
    Mr. Diaz-Balart. All right. Let's see. Which one is that? 
That would be-
    Dr. Rappaport. It shows Category 5, and it has Miami Beach. 
Yes, that would be it, two feet.
    Mr. Diaz-Balart. Oh, I'm sorry. That one. Okay.
    Dr. Rappaport. What we're showing here in the gray area is 
the populated region of south Florida, the metro area. The 
brown is also land. The kind of aqua way off to the right side 
is the Atlantic. And the vibrant colors in-between are 
indications of how deep the storm surge would get for a 
Category 5 hurricane that has the center taking a track across 
the very lower left of your page. See the little black line 
across the lower left, if the center of the hurricane crossed 
the coast down there, this is the kind of storm surge you would 
expect. Storm surge is worse on the right side, because that's 
where the winds are pushing the water ashore.
    The storm surge is the increase of water being pushed 
ashore by the very strong winds. What you see is that the 
entire coastline from south of Homestead, all the way up to the 
top of the page will be underwater for at least some hundreds 
of yards. And that the depth can be, in red you see on the 
scale there, as much as 12 feet. Some areas, though, are much 
seriously effected. If you look at Key Biscayne, just offshore, 
it's all blue. Key Biscayne goes completely underwater by two 
to three, some places four feet. So, in essence, you have just 
the buildings sticking above the waterline.
    Making this more complicated and severe is that on top of 
that are the waves, and the waves are what really have the 
power and the momentum to damage buildings. On the immediate 
coast, we talked about water levels as high as 10, 12 feet, but 
you could look and see that other areas in Miami and south also 
flood, particularly going up the Miami River, and then spilling 
across to Miami International Airport, which would also be 
partly to all underwater. Coral Gables, historic Coral Gables, 
would have as much as 10 feet of water. And down south, where 
we had problems with Andrew, which was a much smaller storm. I 
should say this was a large storm, so it spreads the effect 
further north than Andrew, but the same kind of effect we saw 
with Andrew, deep water.
    The other issue here I'd like to point out is, in the areas 
that are not quite as highly populated south of Homestead, look 
how far the water moves inland, more than 10 miles. So, we have 
an immediate risk at the coast for water levels on the order of 
8, 10 feet, and even higher, offshore some of the islands, 
including part of Miami Beach will go underwater, and to the 
south, the water will spread as much as 10 miles inland. So, 
this is a very serious risk. We're fortunate that we don't get 
this very often, but we know that we will have another storm 
like this some day in the future.
    Mr. Diaz-Balart. Thank you, sir. And, Madam Chairwoman, I 
hope nobody takes this personally, but I hope I don't see you a 
lot this season.
    Dr. Rappaport. I understand.
    [Laughter.]
    Mr. Diaz-Balart. Thank you.
    Dr. Rappaport. Thank you.
    Ms. Norton. Has there ever been a storm like this in 
memory. I'm talking about a Category 5.
    Dr. Rappaport. There have been three Category 5 hurricanes 
to hit the United States. One was Andrew in 1992, one was 
Camille in the Mississippi Gulf Coast in 1969, and the other 
was the Labor Day Keys Storm, 1935. Fortunately, none of the 
Category 5 hurricanes that made landfall have been large, but 
that will happen. And the 1926 Miami Hurricane, which affected 
so much of Florida, and which would be the most devastating in 
terms of damage, dollars lost, if it came ashore now on the 
order of--the projections are $200 billion losses. That 
hurricane was a large Category 4 hurricane, so on a similar 
track to what is showing here, maybe a little bit north of 
this.
    Ms. Norton. This doesn't have anything to do with dikes or 
anything else. It essentially says there's nothing you can do 
except be underwater.
    Dr. Rappaport. You can prepare for the worst of the 
conditions.
    Ms. Norton. It may matter to planners of buildings only.
    Dr. Rappaport. Well, as I'm sure you know and will hear, 
there are plans to move people out of harm's way, and we rely 
on our colleagues in the emergency management community to do 
that.
    Ms. Norton. In the emergency management community, the 
great debate is how much the dikes and the like--but there's 
nothing here between south Miami and the Port except the kind 
of preparedness you are doing.
    Dr. Rappaport. If I may comment just briefly on Katrina. 
There was a great loss in Katrina in Louisiana in the New 
Orleans area. But apart from that, which was caused, to some 
degree, by the levy system, or failure there. There was still 
on the order of 200 deaths along the coast in Mississippi. 
That's the kind of threat we're dealing with here. So, even if 
we didn't have the problem in New Orleans, we would have had a 
major loss, unfortunately, from Katrina, so there's still much 
to do in the way of outreach and education. And that's why we 
spend so much of our off-season focusing on that.
    Ms. Norton. Did you have much effect from Katrina over 
here?
    Dr. Rappaport. We did. Katrina did come ashore here first 
as a Category One hurricane.
    Mr. Diaz-Balart. I remember Katrina. I was out of power, I 
think it was--I don't know if it was Katrina. I think it was 
Katrina. I think I was out of power for two weeks.
    Dr. Rappaport. Yes. There were problems here in south 
Florida, but, fortunately, nothing like what they experienced 
in the Gulf Coast.
    Ms. Norton. A final question about climate change. Has what 
you now understand--what we all now understand about climate 
change on the one hand. What relationship, if any, does that 
have to the development of hurricanes, and has there been any 
change in the development of hurricanes that you can attribute 
to climate change?
    Dr. Rappaport. The relationship between climate change, or 
global warming and hurricanes is still a matter of open debate 
among the scientists. There are recent publications in the 
scientific literature, which suggest that the relationship is 
relatively small, that warming of the atmosphere and the oceans 
will make minimal difference in the number of storms, but could 
increase their frequency a little.
    Again, though there are views -
    Ms. Norton. Their frequency, but not their effect?
    Dr. Rappaport. No. The frequency, I'm sorry. The frequency 
would not change much, but their intensity, I'm sorry, could 
increase a little. I appreciate the chance to clarify.
    There is still ongoing research, and NOAA is sponsoring 
some of that as part of our responsibility for dealing with the 
environment. And we would think that this will be an ongoing 
issue for some time to come.
    Ms. Norton. All right. The relationship between melting of 
ice caps and what happens with climate is very impressive to 
hear. And this research could not be more important, because 
here we could have an effect on climate change in the short 
run-- the kind of warming that science has now categorically 
established in the longer term, whatever that turns out to be. 
We have a responsibility. Thank you very much, Dr. Rappaport, 
for your opening testimony before this hearing. It's very 
important for us to be able to go further and hear from the 
other witnesses. And we're going to ask the other witnesses if 
they will come forward at this time. And we're going to ask to 
hear from the Federal witness first. Then from Florida, then 
Miami-Dade, and then the Red Cross with this. I'm going to ask 
the witnesses to the greatest extent that they can, to 
summarize their testimony in five minutes--because we do want 
to hear your testimony, but bear in mind that we'd like to have 
summaries of your testimony. Your testimony, and I will 
indicate that all your testimony will be received for the full 
record. It's very valuable for us to have the full testimony 
for the record because we use this testimony in our own policy, 
and especially our own legislative changes.
    Let me begin with the Regional Administrator, I suppose 
that would be with you. Introduce Major May.
    Mr. May. Thank you very much, Chairwoman Holmes Norton, and 
Ranking Member Diaz-Balart. It's good to be here today.
    You already covered in some of the opening comments and 
statements some of the many things we're involved with, not in 
Region IV, with all of our states, but also the State of 
Florida, specifically, some of the planning. I'd kind of like 
to go back over some of that now in more detail.
    I serve as the FEMA Regional Administrator for the 
Department of Homeland Security, Federal Emergency Management 
Agency. In this role, I oversee FEMA's All-Hazard efforts in 
Alabama, Florida, Georgia, Kentucky, Mississippi, North 
Carolina, South Carolina, and Tennessee. I have six coastal 
states. As a primary representative and coordinator for the 
disaster-prone region, I oversee the planning, development, 
implementation, execution of all FEMA Region IV programs and 
initiatives. My goals has to been to make sure that FEMA Region 
IV has a robust infrastructure, and all appropriate resources 
in terms of people, operational systems, planning, assessment 
tools, training exercises and equipment are in place.
    Region IV has been preparing for the 2009 hurricane season. 
We're building our operational capabilities more effectively 
with response to recovery, amplifying our stance on hurricane 
readiness. And I'd like to provide more of that information 
now.
    FEMA Region IV administrators have been charged to be more 
active and engaged in this state. We work more than ever 
before. As a result of PKEMRA, our own initiatives, we're 
working to improve our regional communications, performing gap 
analysis with each state, undertaking multi-state evacuation 
planning efforts, and supporting regional exercises. Among the 
lessons learned after the 2005 hurricane season, none have been 
taken more seriously than the breakdown of the inter-agency and 
intra-agency communications. Over the past four years, we've 
taken major steps to make sure this breakdown does not happen 
again.
    Critical information is shared and problems are solved 
among our states and federal partners in the Regional Response 
Coordination Centers, known as the RRCC.
    Communicating during an event with various responders on 
the ground is always a challenge. We recently had an experience 
in Kentucky with the ice storms, which allowed us to exercise 
with great success our FEMA Strike Force, known as Mobile 
Emergency Response System, or MERS. MERS allows us to provide 
communication links rapidly in disaster stricken areas. 
Continued communications has been improved through the Regional 
Advisory Council, known as the RAC. The RAC is a regionally 
focused version of the National Advisory Council. Both elements 
were established from the Homeland Security Act of 2002. The 
RAC provides valuable advice, recommendations on regional 
emergency management issues, and has helped facilitate to 
further enhance our national and regional planning efforts.
    We use a formalized analysis process known as the Gap 
Analysis program. The Gap is helping us to identify the 
shortfalls in all of our hurricane prone states. It was 
validated during the 2008 season when the commodity numbers 
that we agreed upon pre-season were accessible during the 
event. Some of the improvements we have made based on Gap 
findings in the area are in fuel planning and logistics. The 
regional fuel planning effort has been derived from a scenario 
driven to catastrophic planning development over the last two 
years for the State of Florida.
    We have worked closely with Florida Emergency Management in 
identifying the needs, and coming to solutions. The inter-
agency agreements with the Defense Energy Supply Center is 
structured to support FEMA's request, and will supply an 
identified supply of fuel within 72 hours.
    Logistics. Over the last year, FEMA Region IV has greatly 
improved logistics capabilities. Commodities are now staged 
near disasters in National Logistics Staging Centers, where 
they can distributed to locations specified identified for the 
state and the impacted areas. I'd also like to mentioned that 
Florida is one of the most prepared states in terms of their 
logistics program. Efforts will simply augment and enhance 
their very advanced state capacity here in the State of 
Florida.
    Some of the other efforts we have here in the State of 
Florida, we have a joint warehouse in Orlando. We have 
completed state-specific logistics schedules for commodity 
distributions in sync with the state plan that's described 
under the Florida Catastrophic Planning effort, and Gap data 
collection. We are using GIS mapping capability to lay out the 
state staging area sites, and we're hosting a conference call 
among Florida and its sister states within our region, which 
offer a perform forum for logistics-specific discussions, 
planning, and sharing of best practices.
    Our Mass Evacuation Transportation Planning effort goal is 
to have updated state evacuation plans with a focus this year 
on the Atlantic coast, specifically, South Carolina and 
Georgia. To make this effort work, we coordinate with several 
key players, such as Amtrak, and also private ambulance 
services and bus contractors to make this happen.
    In 2008, the focus was the Gulf State region, and we are 
confident that the evacuation plans are functional and 
effective for the 2009 season.
    To further strengthen our partnerships, FEMA is actively 
engaged with state governments in joint exercises to prepare 
for the 2009 season. In late May, Region IV, in partnership 
with the State of Florida, is preparing for the Hurricane 
Suiter tabletop exercise. Hurricane Suiter is a state and 
federal collaborative exercise to test selected systems and 
procedures prior to hurricane season. The exercise will provide 
FEMA and Region IV with an opportunity to test new 
methodologies, and approaches developed from the Florida 
Catastrophic Hurricane Planning process.
    In conclusion, I believe we've made real progress in 
strengthening our relationships with our federal, state, and 
local counterparts. Ultimately, as our Acting Director, Nancy 
Ward, has stated, ``If we do not plan together, train together, 
and develop policies and procedures together from the start, 
we, as an emergency management community, will never be as 
effective as we should be. It's that simple.'' I look forward 
to taking your questions. Thank you.
    Ms. Norton. Thank you very much, Mr. May. Now, I think our 
next witness then would be Mr. Ruben Almaguer. Is that right 
pronunciation?
    Mr. Almaguer. That is correct, Madam Chair.
    Ms. Norton. Deputy Director, Florida Division of Emergency 
Management.
    Mr. Almaguer. Thank you, Madam Chair, Congressmen. My name 
is Ruben Almaguer, Deputy Director, Florida Division of 
Emergency Management. I've served in this capacity for about 
two and a half years, appointed by the governor of Florida, 
Charlie Christ. I've had the blessing to serve under Craig 
Fugate, as well as a former administrator of FEMA, Dave 
Paulison, who is my fire chief. I previously served as a 
Division Chief and a Paramedic for Miami-Dade County here in 
south Florida for the last 20 something years, and so I've 
experienced first-hand, as a firefighter paramedic Hurricane 
Andrew hitting south Florida. I'd like to just briefly share 
with you this simple question, is Florida prepared today? Is 
Florida better prepared than we were in 2004-2005 hurricane 
season? I'm going to focus on a couple of things that are 
unique to our state.
    First of all, it comes down to people. States need to be 
focused at not only the state, the federal level, and the local 
level, that you've got to have the necessary people to do the 
job to respond to these disasters, and remind everybody that 
the aggressive approach that Congress has taken in the Post 
Katrina Emergency Management Reform Act to make sure 
professional standards and emergency management for the FEMA 
Administrator of the State of Florida, from my state's 
perspective, as well as the local, are hiring the best and 
brightest, and making sure people are qualified and trained to 
do their job.
    Second of all, one of the unique things that we learned 
that we did not have in place that Mr. May mentioned was 
commodities. Really, most states in this country still today 
have focused on when disaster strikes, we get contractors in 
place. We get resources that we purchase, and that means you're 
a day late and a dollar short. So, Florida, through the 
leadership of this governor, as well as the legislature, has 
put dollars on the table through a state statute that forces 
that the Division of Emergency Management has a 200,000 square 
foot logistical resource center pre-stage in Orlando with over 
$16 million of commodities in place that we own, that we 
manage, and we will distribute for disaster. That gives us the 
ability to get in front of these events, and push out water, 
and food, tarps, and key resources that will affect the 
survivor of these disasters within hours of the event, and even 
before the event. That way it will allow us, the contractors, 
as well as the federal system, to come behind us, three, couple 
of days later and bring those resources. But, generally 
speaking, if you're relying on contractors and contracts, 
you're very late in responding to a disaster.
    Second of all, there's technology. And Congress, you 
actually talked about the ability to get effective 
communications out to residents of these communities. But, 
also, the technology to receive the information. So, being 
located in Tallahassee, Florida, one of the things we've 
realized that you've got to be on the ground. For as much as we 
have significant enough technology in an emergency operation 
center, and expanded that to have unified command with FEMA, we 
want to make sure this governor and the Director of Emergency 
Management are on the ground at the disaster site to see the 
impacts of this event, so we can effectively respond to those 
counties who will request assistance from the state.
    One key thing that Florida has done, and has taken the lead 
from FEMA, establishing a full-time disability coordinator. 
Many times, people with disabilities are forgotten. People with 
physical disabilities, mental disabilities, hearing impaired, 
visually impaired, and so we have a full-time person who works 
for the Director, who his job every single day, and this is a 
gentleman, Chip Wilson, who, unfortunately, is wheelchair-
bound, his job every day is to remind me and this state that 
there's people out there with disabilities. On the average, 
potentially 20 percent of the population has some sort of 
disability. Are they being reached in the proper way being 
prepared? How are we responding to them, as well as how can 
they get through the recovery efforts of these disasters?
    I will also emphasize that we can have all the people, and 
all the resources in place, but if you don't practice, you'll 
never play well. And that being said, as already mentioned 
here, and I won't go into detail, but Florida will conduct the 
largest scale hurricane exercise in its history the last two 
days in May, and the first two days in June. We will replicate 
the great Miami Hurricane of 1926 that affects south Florida, 
Tampa-St. Pete area, as well as the Panhandle, and we will put 
huge resources to make sure that we find out what gaps are in 
place in case that event happens this year.
    In closing, the last two things I want to emphasize, it's 
about public outreach. We have a simple plan in Florida, every 
state does it a little differently, we tell people get a plan. 
It's real simple. There's civic responsibility. If you rely on 
the federal and state government, and even local government to 
save the day during a disaster, unfortunately, I'm not proud to 
say that they will come to the table. We will still assist 
people who are affected by disasters, but the best way to solve 
a catastrophic disaster is for residents of these communities 
to have the message of being prepared themselves, and that 
means food, water, commodities. Where are they going to go? 
Where are the closest shelters they should go to? Those are 
things that I cannot do for them. With almost 20 million 
residents in the State of Florida, I would need 50 warehouses 
the size that I have today to reach all of the residents of our 
community. So, the more people that are prepared, who have the 
resources, and have plans to take care of them, their family 
members, and their pets during disaster, the better the state 
can focus and use those commodities for people who are living 
paycheck to paycheck, the elderly, and the people living in 
south Florida in the communities that have very little to live 
on, and have no family members. Those are the people that these 
commodities should go to. And, so, we've talked about a very 
aggressive outreach program, which this year we kicked off 
``Kids Get A Plan.'' We realize that we have to get to the 
children, almost 3 million children in school every single day 
in Florida, so we are asking kids across this entire state to 
go to KidsGetAPlan.com, so they can actually put together a kit 
on line in a very friendly interactive way to take these kids 
and plans home and simply tell their parents, mom, where is our 
flashlight? Where is our water? Where is our kits?
    And, in closing, I will tell you that Florida is only good 
because, unfortunately, the state has been impacted by more 
disasters than 47 other states in this nation. And it's nothing 
to be proud of, but also in Florida, out of the top 10 
disasters in the state, seven affected Florida, so we gain a 
lot through experiences. We do some things well, and every time 
that we fail to meet the mark, we improve and use the best 
practices for future disasters. Madam Chair, I'll be available 
for questions, as well.
    Ms. Norton. Thank you very much, Mr. Almaguer. Now, I'm 
going to have to be through with this hearing before 12:00, and 
I want to get all this time to ask questions, so I appreciate 
that you all have your testimony reasonably within the 5 minute 
summary period. And I want to especially go to Mr. Lord now.
    Jonathon Lord is Assistant Director, Miami-Dade Department 
of Emergency Management and Homeland Security.
    Mr. Lord.
    Mr. Lord. Thank you, Chairwoman Norton, Ranking Member 
Diaz-Balart. Good morning, and thank you for asking me to speak 
before you today about Miami-Dade County's Department of 
Emergency Management and Homeland Security, and the County's 
state of readiness for the 2009 hurricane season.
    Miami-Dade County is approximately 2,000 square miles in 
size, and has a population of about 2.5 million people. In 
terms of square miles, Miami-Dade County is larger than the 
District of Columbia, the states of Rhode Island, and Delaware. 
Miami-Dade government provides municipal government services 
for roughly 1.1 million of those residents in unincorporated 
areas, employs more than 30,000 people, and has an overall 
annual budget of $7.5 billion, and an operating budget of $4.9 
billion.
    The other 1.4 million residents live in 35 municipalities 
throughout the county. The cities of Miami, Hialeah, and Miami 
Gardens are the most populous municipalities in the county. 
Miami-Dade County is bordered by two national parks, to the 
southeast, Biscayne National Park, and to the west, Everglades 
National Park. Miami-Dade County is one of only three locations 
in the United States of America that has ever been struck by a 
Category 5 hurricane. And, as you all know, that was Hurricane 
Andrew in 1992.
    Since 1992, Miami-Dade County has activated its Emergency 
Operation Center 45 times; 20 of those activations were because 
of the threat of a hurricane or tropical storm. Since then, 
since 1992, Miami-Dade County has ordered evacuations and/or 
opened hurricane evacuation centers 20 times because of those 
same threats of a hurricane or tropical storm. The 2004 and 
2005 hurricane seasons were, by far, the busiest for our 
county. Our Emergency Operation Center was activated seven 
times to deal with those threats.
    The last three hurricane seasons have been relatively 
uneventful. The county did activate its Emergency Operation 
Center in August of 2006 for Hurricane Ernesto, August 2008 
because of Tropical Storm Fay, and September 2008 because of 
Hurricane Ike. Thankfully, those storms did not cause any 
significant damage or injury in Miami-Dade County.
    While we are thankful for three consecutive years of 
relatively uneventful hurricane seasons, we are always 
concerned that complacency could set in amongst residents 
because of inactivity. The Miami-Dade County Department of 
Emergency Management and Homeland Security works tirelessly to 
keep residents prepared for hurricane season. The county 
produces all hurricane and emergency preparedness publications 
in English, Spanish, and Creole to serve the three major 
languages in our community.
    The Department actively organizes and participates in local 
hurricane preparedness fairs, and expositions, no matter how 
small or large they are, and where they take place. The county 
works very closely with local municipalities to insure that all 
residents, not just those in unincorporated areas, are prepared 
for hurricanes.
    While Miami-Dade County is rich in resources, the county 
works closely with Florida Division of Emergency Management 
when certain resources cannot be identified within the county. 
The Florida Division of Emergency Management then works to 
provide those resources to our county.
    Our Department manages Miami-Dade Alerts, a wireless 
emergency notification system that alerts residents whenever a 
hazardous situation, like a hurricane, threatens the county. 
This system currently has more than 120,000 subscribers. The 
Department also engages private sector businesses through our 
Local Mitigation Strategy. This program actually just 
celebrated its 10th year anniversary last year, and its 
participants include major corporations, and small businesses.
    Together, the public-private partnership has completed more 
than $250 million in strengthening infrastructure around Miami-
Dade County. This program's members are represented in the 
Emergency Operations Center, as well, during activations. Some 
examples of the work completed by the LMS Group, the Local 
Mitigation Strategy Group, include several major flood 
mitigation projects, and the shuttering of critical 
infrastructures, such as hospitals, and public safety agencies. 
Miami-Dade County has completed approximately $800 million in 
public assistance enhancements when restoring infrastructure 
after declared emergency events.
    The County also works very closely with Miami-Dade Public 
School system to establish hurricane evacuation centers that 
can be open, should their County Mayor order an evacuation. 
Presently, there are a total of 56 hurricane evacuation centers 
throughout Miami-Dade County, with a capacity of over 85,000 
spaces. These totals include primary, secondary, and tertiary 
hurricane evacuation centers. In addition to these hurricane 
evacuation centers, the County has six special needs evacuation 
centers to serve our vulnerable population.
    The County established an Emergency Evacuation Assistance 
Program. This program provides transportation to special needs 
centers that are operated by medical personnel. There are 
currently 2,000 people registered for this program. The Miami-
Dade County Department of Emergency Management and Homeland 
Security works also very closely with the National Hurricane 
Center. Any storm within 1,500 nautical miles, and with a 
forecast track to bring it in the general direction of south 
Florida, is closely monitored by our Department, as well as any 
system that initially develops in the Gulf of Mexico, or the 
Caribbean.
    The Department issues readiness advisories to all of our 
Emergency Operations Center partners, and engages in conference 
calls with local agencies, and the National Hurricane Center. 
These advisories including things like the storm's position, 
and forecast track. We also provide a tentative planning 
schedule in which we enter data provided by the National 
Hurricane Center, such as direct path calculations, forward 
speed, and potential arrival of tropical storm force winds in 
our community. These advisories provide a time line for 
preparedness activities, including the issuing of press 
releases, conducting special needs population call-downs, and 
the opening of evacuation centers. And, additionally, 
establishing EOC activation levels, and considering a Local 
State of Emergency, and beginning general evacuations or Bus 
Pickups for assistance of those who cannot get to an evacuation 
center on their own.
    Let me conclude by saying that maintaining local, state, 
and federal partnerships exhibited here in south Florida, are 
key to ensuring our community's preparedness. Thank you, Madam 
Chairwoman, for this opportunity.
    Ms. Norton. Thank you very much, Mr. Lord.
    Ms. Hagan.
    Ms. Hagan. Thank you very much, Chairwoman Norton, and 
Congressman Diaz-Balart. I am honored to represent the American 
Red Cross. My name is Karen Hagan. I'm the State Disaster 
Officer for the American Red Cross in Florida. And I know that 
you've read the written testimony, and I'd like to just focus 
on a couple of key points.
    Behind me is Sam Tidwell, and he is the CEO of the Greater 
Miami and the Keys Chapter. And any specific questions related 
to this area, I'd like to engage him in that.
    Today's issue is preparedness for the 2009 hurricane season 
beginning June 1st is important to the Red Cross, and it's 
especially important to me, and my colleagues around the state. 
The Red Cross stands ready to respond this hurricane season, 
and we continue to improve our coordination and relationship. 
We have a wonderful relationship with FEMA Region IV, with 
state Emergency Management, local Emergency Management 
agencies, other state organizations, and, of course, the other 
non-governmental and faith-based communities.
    Specifically, what we bring to the table, the first and 
most foremost is mass care, that presence, that opening of a 
shelter where survivors can go. They can expect a place to 
sleep, a safe place to exist, food, mental health. And one 
thing I want to say about sheltering is the survivors that go 
into either a hurricane evacuation center or a shelter, when 
they are in that building, they do not know when they leave 
there whether or not they'll find a home to go back to. So, the 
mental health component to that is very important, and very 
critical.
    We have been participating with the Catastrophic Planning 
Process since its inception. We're prepared to test some of the 
planning scenarios, and some of our planning assumptions at the 
statewide hurricane exercise at the end of May and beginning of 
June.
    The other thing I want to mention is the difference between 
a hurricane evacuation center, a place where people need to get 
out of harm's way, a lifeboat, and a shelter. Once we can move 
people from an evacuation center into a shelter, then that's 
where they can expect a place to sleep, the food, and the 
support that is more traditionally thought of when we talk 
about a shelter.
    I can say that in the State of Florida, Florida Division of 
Emergency Management has utilized the American Red Cross 
National Shelter System as its shelter database of record. Last 
year, as we prepared to enter into hurricane season, we had 
about 695,000 shelter spaces in that system. Today, we have 
842,000 plus shelter spaces. That's an increase of 150,000 
shelter spaces, which is very exciting. With that increase, 
however, is a need to train more shelter managers, more shelter 
workers, et cetera. So, it's an ongoing process of readiness 
and preparedness.
    Along with sheltering, we provide feeding, both feeding 
within the shelters and mobile feeding for folks that haven't 
left their home. We'll be able to bring food to them, as well 
as bulk distribution items, such as: comfort kits, cleanup 
kits, and other necessities. And we have a whole system to 
provide that.
    I mentioned mental health services in a shelter. We'll also 
have that available to folks wherever they may congregate 
because it is such an important component. We're available to 
do client case work, advocating for people, connecting 
community resources to the needs that the people have, and 
working with our partners, both government, and non-government 
partners.
    We also have a tool, our Safe and Well website, which will 
allow survivors to communicate with family members outside of 
the affected area, just to allow them to know that they're 
okay.
    Mr. Almaguer was talking about the outreach to people with 
disabilities. The American Red Cross is making it a nationwide 
priority to ensure that services and shelters are accessible, 
and as accessible as possible to people with disabilities. And 
we have initiated two big programs in Florida, both working 
with our State Disability Coordinator, Chip Wilson. One is to 
train emergency managers, the Centers for Independent Living 
and American Red Cross representatives to survey buildings for 
accessibility so that they can meet ADA requirements. The other 
is to teach disability etiquette to our shelter workers, so 
that we can provide the kind of services that we should be 
providing to people with disabilities when they come into our 
shelters.
    The demographics of this state are diverse. We are trying 
to recruit the type of volunteers who can truly meet the needs, 
and communicate with people that we're going to be serving all 
over the state. And from training, to case work, to public 
messaging, everything we do is in Spanish, and much is in 
Creole.
    Our collaboration with our government and non-government 
partners cannot be understated. We are in this together. We are 
actively working with many groups. This year, for example, 
besides the myriad of faith-based, community, and other 
religious organizations, we have worked significantly with the 
NAACP, with our Florida Association of Centers for Independent 
Living, and with our CERT, the Community Emergency Response 
Team, because with that increase in shelter spaces, we need to 
see an increase in training and capacity building.
    Are we ready for 2009? I believe that we are and will share 
some of our efforts taking place at the national level. We're 
expanding and pre-positioning supply inventory to support 
feeding and sheltering. We have on hand 500,000 meals, and MREs 
that we're storing. We've upgraded our IT systems to have 
greater controls over our financial management, and to share 
sheltering client information with our partners. We have pre-
positioned communications equipment. In fact, in Florida, we 
have 20 Red Cross shelters serving all 67 counties, and every 
one of those chapters has a satellite communication unit, so 
that we can make sure that we're communicating. We have built 
more effective logistics, supply chain, and inventory control 
systems.
    And, as far as our trained disaster workers, we have more 
than 80,000 people in the disaster response database; 93 
percent are volunteers, and we've had an increase in Florida in 
that database of 11 percent since last year. So, we are ever-
increasing our capacity.
    I am confident, in closing, that the plans, processes, and 
partnerships that we have with our federal, state, local, non-
profit, and faith-based organizations positions us well as we 
look to this hurricane season. Thank you, and I'll be happy to 
answer any questions.
    Ms. Norton. Thank you very much, Ms. Hagan.
    In his home jurisdiction, I'm going to defer now to the 
Ranking Member for the first set of questions.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman.
    First, Mr. May, the National Disaster Housing Strategy, 
which was released in January, and FEMA recently issued its 
2009 Disaster Housing Plan. And, as I mentioned before, the 
plan advances a four-pronged approach to addressing housing 
units. And I think I'm going to have a couple of questions 
later about housing, as well. What plans specifically have been 
made here in Florida, and do they improve how housing would be 
managed in a worst case scenario? If you look at those flood 
lines, you realize that could be a huge issue.
    Mr. May. Right. And, yes, we have been working with state 
and local government to identify that. And, as the Strategic 
Housing Plan, one of the big parts of that is, not only does it 
bring some of the old pieces of the FEMA housing opportunities, 
which were mobile homes and travel trailers to the scene, but 
also takes a look at the community, helping us make decisions 
how they want that housing to look in their communities. And, 
yes, we're working with them. A catastrophic event, though, is 
a catastrophic event. And we will have to work our way through 
a catastrophic event. The housing plan specifically does not 
address the catastrophic event. It creates a framework to 
establish a housing plan for the State of Florida.
    Mr. Diaz-Balart. Last year, I co-sponsored a bill that 
would provide incentives to states, and also to enforce 
statewide building codes. And how often do you think that 
building codes are for mitigation purposes?
    Mr. May. How often do they contribute-
    Mr. Diaz-Balart. How successful are they, building codes-
    Mr. May. I think they're tremendously successful. And 
normally, after an event, we will go out and do a survey to 
validate the flood heights, especially in the flood surge area, 
to determine if the mitigation efforts have been successful. 
And you heard, and you mentioned in your opening statements, I 
think both of you did, about the 4-1 ratio on mitigation 
efforts. They do work, and most cases, the maps are pretty 
accurate, and are reflective in the type of construction, and 
the height of construction, and those things do work.
    Mr. Diaz-Balart. Mr. May, one of the things that I think is 
a concern always, is you guys have to develop a balance, when 
FEMA should step in, and, obviously, who inlocal government has 
jurisdiction, or whatever. And you're doing a heck of a job, by 
the way, as I see it firsthand. Madam Chairwoman, I know that 
FEMA sometimes gets a bad rap, but you know, number one is 
they've done an incredible job of improving, and they've done 
some really good work. So I want to commend you for the work 
that you do. It's a delicate balance. How do you make sure that 
you don't overstep in order to make sure that you don't 
disincentivize local governments, and state governments from 
doing what they need to do. Obviously, they're closer to the 
ground than you are, so how do you balance that out?
    Mr. May. Well, it is a partnership, and we're at the table 
in a partnership today. Second, we understand the 
responsibilities under the constitution of the governor and the 
state and local government, what their responsibilities are for 
the protection of the citizens of the community.
    We mentioned the Gap Process earlier, how we engage, or are 
more engaged in asking probing questions of local officials 
about what their capabilities are, and then suggesting that 
maybe we could provide some assistance there; understanding 
it's their responsibility.
    I think the catastrophic planning effort we're doing with 
Florida with the hurricane is a perfect example. Normally, when 
FEMA would let a contract to support an exercise, we would let 
a contract in Washington, and set the work schedule, things we 
want, the outcome of the exercise. This time, we went to Craig 
and said, ``Craig, what do you want this exercise to 
accomplish? And you tell us what to put in the contract.'' And, 
so, by engaging that contract in that way, and it really is a 
bottom-up effort, and many of the folks who are at this table 
have been engaged in that process, so I think that's helpful, 
and how we approach the engagement with local government, and 
state government.
    Mr. Diaz-Balart. Thank you, sir.
    Also about housing. If the worst case storm were to happen, 
and 50 percent of the homes and apartments were destroyed, how 
do you deal with that? How do you deal with that in the short 
term?
    Mr. Almaguer. Well, one of the things we recently did that 
we'll be publishing is what Floridians want to do. We did a 
survey statewide, and we've realized, and we've already known, 
people want to stay either next to their house on their 
property, or very nearby, while their community rebuilds. It's 
their neighborhoods, it's where their churches are, it's where 
their jobs are. And, so, to displace people outside of these 
communities, and move them to other states is not what they 
want, and not what's going to happen in Florida. So, even 
though it's the federal responsibility for the housing plan, it 
is a partnership with the state and locals, so the state 
already has in place contracts for implementing and assisting 
FEMA to get temporary housing units in these areas. We call it 
haul-and-install, and so, one of our responsibilities is to get 
as many travel trailers into these communities quickly to 
assist. But during catastrophic disaster, Congressman, I'll be 
very clear, for an exercise that we're going to conduct to 
replicate that great Miami Hurricane, there is not a housing 
plan in this country, in this world, that will be able to come 
to the table to assist in that event. We are still planning for 
that, but our focus is to focus on disasters in which we can 
get temporary housing in communities, but there will be 
situations where we have to move people outside of these 
communities, hopefully not outside of Florida, because 
generally, when they leave, they don't come back.
    Mr. Diaz-Balart. Well, right. And I think one of the things 
that we ought to realize is that there's something to be said 
about personal responsibility. Now, we're the ones that have to 
have--individuals have to have plans, have to have alternative 
places to stay. And I think the government always has to be the 
last gap approach, obviously. But let me restate the question 
that I asked before about the balance between FEMA and the 
state and local communities. How do you deal with that? How 
much is too much of a stretch for FEMA to be involved in the 
states and local communities? And how do you deal with that 
balance?
    Mr. Almaguer. The public today would ask the media, or ask 
us where is FEMA? Which is actually the wrong question. Really, 
all these disasters, all the fire truck, police officers, 
paramedic, nurses and doctors, nobody owns any -- the state 
doesn't have any of that stuff. FEMA doesn't have any of that 
stuff. It's the locals. So the question always needs to be at 
the local level.
    The other side of this, sir, is, there is a very cautious 
approach in which a state doesn't want to be, and the counties 
in which we want them to grow their emergency management 
capabilities, and them to be as self-sufficient as possible.
    I will tell you the worst thing Congress can do would be to 
embold and empower FEMA to the point where they become so 
heavy-handed that it disincentivizes states to prepare, and 
have resources, and have the personnel to manage their own 
disasters. In our state, we love to be very proud to manage 
some disasters, and we do, many tornadoes and wildfires, and we 
don't ask for federal assistance. But there will come a day, 
and right now we have a Presidential declaration for the floods 
in north Florida, no one even knows about, that FEMA was right 
there at the table, very low-key assisting us, but the reality 
is, FEMA needs to--excuse me, the federal government needs to 
strengthen states and locals, and allow FEMA to have the 
resources for those large events that we would have to reach 
out to the federal government to assist us.
    Mr. Diaz-Balart. You talk in your written testimony about 
building--which I thought was interesting--a survivor 
mentality, rather than a victim mentality, and that citizens 
should be encouraged to-- and to empower the state to help in 
recovery efforts themselves after a disaster. Now, what are 
some of the steps that can be taken to help empower individuals 
in preparing for a storm, and for the consequences after a 
storm?
    Mr. Almaguer. I think we would all agree that it's a 
psychological dynamic in which, when we call ourselves victim, 
we feel like something has happened to us outside our control 
that now we can't do anything about. But now we deserve for 
someone to take care of us as a victim. We've been violated, 
something has happened, and that we are now traumatized. We 
actually look at victims are those unfortunate people who 
actually, we have to bury. We want very few of those people to 
ever happen in Florida. But, you know what, disasters will 
happen.
    We believe that anybody who survives a disaster is a 
survivor. That means you have the responsibility to take care 
of you and your family, more importantly, check on your 
neighbor. Reach out in your community. There is not enough 
federal, state, and local resources for a large-scale disaster 
for everybody to come to the table and save the day. It's going 
to be Floridians in Florida who help neighbors to recover from 
these disasters, recovery that goes on many times for up to 10 
years, so we want people in Florida to be survivors, not 
victims. And the way to do that is to get a plan, and be 
prepared for you and your family.
    Mr. Diaz-Balart. You know, one of the things that is 
interesting is because when you have--you obviously warn people 
that these things are coming. You also help them to get 
prepared. You also have to tell them what's available, when it 
will be available, and that's also an interesting balance. We 
saw that after a few of the storms that we had able-bodied 
people standing in line for water and ice, when we never lost 
water in parts of the county. All you had to do was open the 
tap, and there were people waiting in line for hours, waiting 
for water, which I thought was interesting. So, that's a very 
interesting balance, to make sure that we continuously remind 
people that it's really our responsibility. The government is 
not the first line of defense, it's the last line of defense. 
Once you've--you can't do it for yourself, that's a very 
difficult balance to achieve, obviously.
    Mr. Almaguer. If I may, one of the things that has not been 
mentioned here is the private sector. The private sector, the 
Publix, the Home Depots of all of Florida, as well as many 
other private companies really are the saving grace in Florida. 
It's easier and cheaper for the federal government and the 
state to get a Home Depot and a Publix open, to allow people to 
go in there and have the resources that these companies on a 
daily basis have the capabilities of reaching out and getting 
resources on the table, much better than the state and locals 
will ever be able to do. So, if they just need a generator, 
they need fuel, I'd rather get Publix and Home Depot open, 
where you can go and get your stuff. That means, guess what? 
It's not for free. And that's not the responsibility of 
government, but there is going to be times in which we can't do 
that, and those isolated communities is where we will open up 
points of distribution to get food, and water, and key assets 
to those areas that are very isolated. Our focus is generally 
to get private sector open to partner with the state, and get 
more resources on the table much more quickly.
    Mr. Diaz-Balart. Thank you, sir. Mr. Lord, kind of the same 
question. How much is too much of an overreach, and what's the 
kind of relationship that you have with the state, and with 
FEMA?
    Mr. Lord. I think the most important thing for us, 
actually, in looking at the partnerships is for us, at the 
local level, to truly take emergency preparedness very 
seriously, and help our residents build that culture of 
preparedness, whether it's housing, or having your supply of 
food and water, or having your place to go. And our concern is 
to make sure that all of our residents are always prepared for 
that. We have a great partnership with the state and the 
federal government.
    Mr. Diaz-Balart. How do the local-
    Mr. Lord. Yes. And the cities. You know, while we have 
the--the onus is on the county to provide emergency management 
services in the State of Florida, we have a very-- like I said, 
35 very strong municipalities in our county, that also do take 
emergency management very seriously. Even in the non-hurricane 
season, we focus on them, and meet with them on a regular 
basis, and address the concerns they have, make sure they're 
prepared for not just hurricanes, but other disasters, as well. 
Many things, such as providing ice and water when the time is 
needed for that to be provided, those municipalities do look to 
us to help provide those services. Many of them can provide it 
themselves, some rely entirely on us, depending on their size 
and their ability. And we take a look at the community as a 
whole, and try to find those areas that need our assistance the 
best.
    We can also expect the same from the State of Florida, 
while we try to do as much as we can on our own, there's a 
point where Miami-Dade County cannot provide services any more, 
need assistance providing those services. Our great 
relationship with the State of Florida allows us in a matter of 
a phone call or an email to get those services and items we 
need almost instantaneously from the State of Florida.
    Mr. Diaz-Balart. Thank you, sir. The Chairwoman has been 
very generous with me, so I'll be quick.
    You spoke about outreach efforts to people with 
disabilities, which is something that I know the state has been 
very active with, and so has the local municipalities, and the 
county. But I'm also pleased to see that you're expanding your 
language bank, ensuring effective communications with those who 
speak Creole and Spanish. Can you talk about the progress that 
you're having there, and how you're doing there? Are you 
satisfied where you are there? I also want to thank you for, 
you and your's for the efforts that you make. I've also, 
unfortunately, I went to see not only with the shelters, but 
also in your trucks out there, feeding people in different 
areas, which is one way to keep people in their homes, which is 
great. A lot of people just don't have access to food anymore, 
so, again, thank you for your efforts. But talk to us a little 
bit about the language challenges, and how you're doing.
    Ms. Hagan. Okay. And let me first answer your question 
about disabilities. It's a national priority. It's a state 
priority. It's a local priority, and we're really in this 
together to make sure that we meet the needs of people with 
disabilities and can accommodate them. And I think I 
articulated that in my testimony.
    I'd love to ask Sam to share some examples of what they're 
doing here locally with the language banks, and their training. 
Sam?
    Mr. Tidwell. Well, let me just say that certainly here in -
    Mr. Diaz-Balart. Sir, give your name.
    Mr. Tidwell. Oh, Sam Tidwell, CEO of American Red Cross, 
Greater Miami and the Keys Chapter. Certainly, here in greater 
Miami and the Keys, our culture is so diverse. Seventy-five, 
eighty percent of our volunteers are bilingual, mostly in 
Spanish, but more and more in Creole, as well. And so, 
everything that we have, all of our communications, everything 
that we do is multi-lingual. And we have volunteers at every 
shelter, every evacuation center, and every feeding process 
that have people who are bilingual, or trilingual. And we 
certainly work closely with our partners in local government 
and state government to make sure that all the communications 
that we have going through that same process are in multi-
language.
    We engage so many partners from community organizations to 
traditional organizations that deal with the specific cultural 
communities that we have, as partners in the American Red 
Cross. And they are our volunteers, they are our sites for 
sheltering after storms, and they are communications with the 
communities.
    Mr. Diaz-Balart. Thanks so much. Madam Chairwoman, can I 
ask one more.
    Ms. Hagan. Thank you.
    Mr. Diaz-Balart. Again, I apologize for abusing your 
generosity, but I'll ask Mr. May, the status of the Long-Term 
Recovery Office in Orlando. You talked about a little bit. Is 
it operational, is it fully operational there? There was plans 
I guess last year to downsize it, and closing it. Where are we 
on that? How is it going? What insurances do we have that it's 
going to continue to be there?
    Mr. May. It's up and operational, and we continue to 
rightsize that office, when appropriate, based on workload. We 
use those personnel throughout the State of Florida for work to 
work in other disasters. We've used them also because of their 
expertise in other states around the country to work disasters, 
sometimes several months at a time, so it's a valuable resource 
for me. And I consider that's so, but it is our intent at long-
term to watch, to continue to rightsize that office, like I 
have an office also in Biloxi, one in Alabama, also, that have 
been stood up as a result of previous disasters, that we also 
look at the needed staffing levels on a daily basis, on a 
weekly basis, excuse me, and determine what that should be. The 
staffing level there is very stable right now, as far as the 
workload is concerned. The state is staffed up their resources 
there, and we're making great progress on the 2004 and 2005 
storms. And it's a valuable resource for us.
    Mr. Diaz-Balart. Okay. Thank you. Thank you, Madam 
Chairwoman. That's one of the reasons I need to talk to you 
about the drywall later.
    Mr. May. Chinese drywall?
    Mr. Diaz-Balart. Chinese drywall, yes.
    Mr. May. I've heard about it.
    Mr. Diaz-Balart. Yes, I', sure you've probably heard about 
it, and there's a bill that Congressman Wexler and I have spent 
some time on.
    Mr. May. Yes, sir.
    Mr. Diaz-Balart. Thank you, sir. Thank you, Madam Chair.
    Ms. Norton. Certainly. I wish all of you would tell me what 
resources have been pre-positioned, and how that works as of 
now for any upcoming hurricane season. Which of you goes in 
first with resources? How are the others clicked in, if at all? 
What resources are we talking about? Where are they? Would you 
briefly give me answers on this.
    Mr. May. Ms. Norton, I cannot specifically give you all the 
numbers, but FEMA does have strategic storage sites around the 
country.
    Ms. Norton. I'm only talking now about the Florida area.
    Mr. May. Okay. We have co-located with the State of Florida 
in Orlando, we have resources there. And we do logistics 
planning with the State of Florida to determine what their 
logistics needs would be, and bring those resources in, 
primarily in the area of water and MREs, or meals ready to eat. 
And they'll be available based on the State of Florida's need.
    Mr. Almaguer. Madam Chair, to be very specific, the State 
of Florida has 300 tractor trailers load of water, pre-
positioned in Orlando. We have 50 tractor trailers pre-loaded 
of water in Homestead.
    Ms. Norton. So, does the state go in first?
    Mr. Almaguer. Well, the state will always be -
    Ms. Norton. How is that coordinated with water, for 
example, that FEMA has?
    Mr. Almaguer. The local county administrator, mayor, 
emergency management official will ask the state for 
assistance. At that point, we are going to mobilize all the 
resources.
    Ms. Norton. So, Miami-Dade goes in first?
    Mr. Almaguer. Yes.
    Ms. Norton. So, it's Miami-Dade in front of Florida, the 
ultimate source is FEMA. Is that the way it works?
    Mr. May. That's correct. We bring the water to a staging 
site, and the state takes it from there.
    Mr. Lord. Obviously, our supplies are much smaller, our 
stockpiles, but we do every year make sure we have supplies of 
mass-care items, sheltering items. Actually, our school 
district is very good, which serves as our shelters, actually 
having three days supply of food on throughout the entire 
hurricane season. So, in the event we have to turn those 
schools into shelters, they can actually be self-sufficient for 
three days, and provide feeding, and water, and care to those 
residents in the shelters. At that point in time, when we can 
no longer provide that care level, probably even before that 
when we know we're getting close to that breaking point, we 
would make the request up to Tallahassee, and the state would 
then help push out more items for us, if we do need them.
    Ms. Norton. Now, I want to find out, Mr. May, who is going 
to bear responsibility for Puerto Rico? You closed the center 
in Puerto Rico. How does this enable you to provide assistance 
to a largely Spanish-speaking island?
    Mr. May. We've closed the NIPC, which is the application 
taking center that was established to serve the Spanish-
speaking population there.
    Ms. Norton. Also, the people.
    Mr. May. Yes, ma'am. We have three sites around the 
country, and we have-
    Ms. Norton. You have what? I'm sorry.
    Mr. May. We have three NIPC sites.
    Ms. Norton. NIPC, what's that?
    Mr. May. That's a site-
    Ms. Norton. Speak English.
    Mr. May. It is a center where we take the applications for 
disastrous needs after a disaster.
    Ms. Norton. Now, why did you close that? It is a very 
vulnerable, to say the least, area for hurricanes.
    Mr. May. It was determined that the operational need for 
the facility based on capacity and the other sites that were 
located in this country could still take those applications.
    Ms. Norton. What about how isolated it would be, if people 
have to get there. We're talking about an island right off our 
coast, and if there's no center to take applications, and 
you've got to go from here to there?
    Mr. May. Well, these applications--the NIPC Center 
applications are taken by telephone or by electronic means. We 
would still provide individuals in our mobile disaster centers 
to take applications.
    Ms. Norton. But who do you have on the island to-
    Mr. May. We would have people-
    Ms. Norton. -- to receive telephone-- applications that 
would be relayed to where?
    Mr. May. To three locations in the U.S. We have people 
standing by to take those applications.
    Ms. Norton. I hope you all have done some tabletops on 
that. We do not need to leave people who are very vulnerable in 
hurricanes-
    Mr. May. Based on the workload-
    Ms. Norton. -- with any delay whatsoever. These are 
American citizens, they just happen to be a little offshore.
    Mr. May. Yes, ma'am, we understand that. And we think we 
have capacity to meet that need.
    Ms. Norton. Let me ask you about trailers, Mr. May. I 
understand that, from the Disaster Housing Plan, that you're 
going to get the trailers with improved quality of air care 
exchange and the rest. How many of those do you have? What's 
happening with the older trailers that caused so much pain, and 
lawsuits, and all that goes along with that? Are there trailers 
available should they be needed here in the Atlantic, Florida, 
south Florida area?
    Mr. May. There are trailers available if they're needed 
here.
    Ms. Norton. And what kind of trailers would they be, these 
new improved air quality, air exchange trailers?
    Mr. May. We have some of those available. And I don't have 
those numbers. I can get back with you and give you exact 
numbers on those. We also have some trailers that meet a 
standard.
    Ms. Norton. Are any of these refurbished older trailers, of 
the kind we already had on-
    Mr. May. Some of the trailers are refurbished, and meet the 
formaldehyde standard that we need to meet.
    Ms. Norton. I don't have any problem with that, so long as 
they meet the standard.
    Mr. May. Yes, ma'am.
     Ms. Norton. The problem I had was throwing away stuff. I 
never did understand throw-away society, and we're seeing a 
structural change in the American standard of living. I hope 
everybody knows, everybody--get you to throw your credit cards 
away. The United States is going to have to throw its away, 
too. But this is not just Wall Street's fault. Everybody has 
been living this way in a society that no longer makes 
anything, but thought it could still keep making dollars.
    Mr. May. We will get back with you-
    Ms. Norton. So, we've got all these trailers out here that 
turned out to cause sickness, if not death. I wish you would 
get to this Committee within 30 days, the disposition of all of 
these old trailers, particularly for reconditioning them
    so that they are so safe for human beings, for long-term 
occupancy, if necessary. We certainly hope that won't be 
necessary. Have there been any recent--are people still in 
trailers here in Florida?
    Mr. May. I think we have seven families, maybe, in the 
State of Florida that are in trailers from the 2005 and 2005 
season. And those trailers did not have a formaldehyde issue, 
if my understanding is correct.
    Ms. Norton. Mr. Almaguer?
    Mr. Almaguer. That is correct. We still have the Long-Term 
Recovery Office managing 18 open disasters out of Orlando, but, 
Madam Chair, I think you're bringing a point well taken, that I 
don't think has a final answer to. I think the long-term 
temporary housing solution is not a Florida issue, it is a 
national issue. So, the next event, and it doesn't have to be a 
hurricane, it could be a massive catastrophic wildfire, 
tornado, and any other event, housing, after food and water, is 
a long-term issue that this country needs to address. And we'd 
love, as the State of Florida, as well as with the other 
states, we'd love to partner with FEMA, try to come up with 
those solutions.
    Ms. Norton. This, of course, continues to be an outstanding 
problem. You have jurisdiction over several states, that 
includes, you said, Biloxi. How much of Mississippi do have?
    Mr. May. The entire state. How many trailers there, ma'am?
    Ms. Norton. Is that your jurisdiction?
    Mr. May. Yes, ma'am, it is.
    Ms. Norton. I'd like you to get to this Committee within 30 
days how many people are still living in trailers in the State 
of Mississippi following Katrina, and Rita. This was a 
particularly troubling state, Mississippi. The state has spent 
a lot of their housing money on other economic development, in 
other ways, and we had to extend the period for care for 
people. That's something we very much want to hear. You don't 
have Louisiana?
    Mr. May. No, ma'am.
    Ms. Norton. So, 30 days get us that information. The state 
of the trailers, how many people are still in trailers, and 
what are the plans for getting people out of trailers. Those 
are the most vulnerable people. Those were the most handicapped 
people. Those were the disabled people, so we would like a 
status report on that, if you will.
    Now, how much has each of your jurisdictions used on 
mitigation, preparation and mitigation for hurricanes or other 
disasters? How much in funds have you used? And could you give 
me examples of where mitigation preparedness has been useful to 
you?
    Mr. Lord. Actually, I don't have exact numbers, but we can 
get back to you with those.
    Ms. Norton. With those numbers in 30 days.
    Mr. Lord. But we actually have a very good example of a 
partnership with the state, and local, and federal mitigation 
project. One of the big things that keeps south Florida dry is 
our canal system. It's actually managed primarily by the South 
Florida Water Management District, which is a quasi-state 
agency. But, obviously, for us to keep our communities dry, we 
rely very heavily on these canals.
    When a storm comes, the storm surge on top of the rainfall 
in one of these tropical systems actually fight against each 
other, and actually double the impact in South Florida, because 
you have storm surge coming in from the ocean, as well as 
rainfall we're trying to drain through the canals. One of the 
huge mitigation projects, I think at this point in time, is 
actually the largest mitigation project in the country funded 
through FEMA, was actually reverse pumping stations, and 
retention basins built actually in Central Dade County. So, at 
times when we can't pump water out to the ocean to keep Dade 
County dry, we can actually pump back into these gigantic 
retention basins. And that was a project that was primarily 
funded through the Mitigation Program through FEMA, and 
partnership with the State of Florida, as well.
    Ms. Norton. Any examples we can get. Mr. Diaz-Balart and I 
are both great supporters of mitigation and preparedness 
funding. This goes against the grain of the federal government, 
to spend money to keep something from happening. It is almost 
anti-American; that is to say, if it happens, we will be there 
for you. If you get terribly sick from cancer, or heart 
disease, or high blood pressure, and you get so you can't work, 
we will get you some disability, and we will get you to the 
emergency room. But if you ask us for wellness programs, 
because you have high blood pressure, you don't have health 
insurance, we will tell you I'm sorry, we don't fund that. If 
you get so living in your home, if you are an elderly person, 
and you are declining, and you finally get so you're among 
those in the elderly, of course, because they are elderly, need 
more hospital care than anybody else, we will take care of you 
in your final days, but we will not provide you with someone to 
come into your home to help you take care of yourself. And the 
reason I have this historical sense of our country, it's 
because it seems to me we live in this vast continent-size 
country--well you go to the next place. You know, we own the 
world. We don't own it any more. So, when we come and say there 
hasn't been a disaster in Florida yet. Louisiana and 
Mississippi got by without a hurricane. Then we ask for money 
in advance in order to help the states to take the kind of 
action that Mr. Lord has taken. We've got to be able to show 
what our studies show you were able to get this reauthorized. 
Huge savings, just huge savings to the American. We'll take 
care of you one way or the other. And we're going to take 
care--let us take care of you with our funds behind the fact, 
as possible, because we will spend any more of those funds.
    I would like to ask you about reimbursements following a 
disaster. What has been the experience here when there need to 
be reimbursements from FEMA? How long does it take to get a 
reimbursement? What happens when there are disagreements? How 
do you work out those disagreements?
    Mr. Almaguer. Madam Chair, on behalf of the State, that's 
the value of having the Long-Term Recovery Office in Florida. 
Director May, even allowed the State of Florida to sit on the 
interview panel of a gentleman who actually is the Director of 
that office, because it truly is a partnership, so when you say 
if there is a problem, I call Robert Ives, the Director in 
Florida. If not, I call Phil May. I'm not sending memos from my 
governor to the White House, and these are relationships that 
have been built over the years. And I will tell you, it's been 
very successful in Florida, my short two and a half years, and 
that I know of right now, there is not an outstanding issue in 
Florida that either a Congressional Member, or a state 
legislative member have brought to our attention, or that we've 
identified that could not have been resolved on a phone call, 
or a face-to-face meeting.
    I will tell you, it will never be fast enough. These are 
long-term, complex projects. Road repavements, drainage, 
ditches issued, to be rebuilt, as well as homes and communities 
that have been devastated, especially, we're still-
    Ms. Norton. I'm talking about who is responsible for what?
    Mr. Almaguer. Well, it's really--three people are 
responsible, the locals are-
    Ms. Norton. I'm talking about disagreements between the 
state and FEMA over who pays before--I'm talking, Mr. May, 
about the kind of disagreements, if I can give you an example, 
that we have outstanding, shameful, in Louisiana. In Louisiana, 
more than $3.5 billion hung up because the state and FEMA have 
been unable to resolve who should pay for what. In Mississippi, 
Mr. May, a billion or more, same problem, less, of course, than 
Louisiana, except they only had more of the--so much so, and I 
understand this was an unusual catastrophe, but it really 
brought to light very, very terrible issues that we didn't have 
in place, mechanisms in case you got to that point. And so what 
we have here was they could build their major hospital down, 
Charity Hospital. Well, they're hung up, and FEMA tells me 
well, we have a field mechanism, as if we're fools. The problem 
is not with appeal. They can't agree first where the 
disagreement is. It's like being in District Court, and the 
District Court doesn't come to a decision, to you can't go to 
the Court of Appeals. That was the kind of gobbledygook I was 
getting back from FEMA. So you know what happened? In that 
case, Mayor Landrieu, whose state this was, put something in 
the Omnibus Appropriation Bill that had the President appoint 
an arbitration panel. Now, isn't that disgraceful? Instead of 
doing so, he and I got together and now what is supposedly 
happening is that there's some ALJs that are supposed to work 
it out.
    We are prepared to deal with differences, different 
situations in different ways. My great disappointment in FEMA 
was that it didn't see that wait a minute, you know, this is 
outsized. And we just can't--and I can understand the position 
of the federal government. The federal government say okay, we 
give up. Here's the money. Meanwhile, the state is always going 
to want more money than the federal government has to give. 
What bothered me was that nobody had the sense to sit down and 
say well, wait a minute, do we have anything in our arsenal 
that could enable us to find some objective way to deal with 
this?
    I'm asking, of course, and I'm getting good answers here, 
but then you haven't had a catastrophe since 1992, I'm asking 
you, Mr. May, where are with, between one and two billion 
dollars lying up there, when the federal government is having 
to distribute money out in order to get jobs for people? Where 
are we on that money in Mississippi?
    Mr. May. I can't give you the specifics. By the way, I was 
just given the responsibility for that disaster, Katrina, about 
two weeks ago.
    Ms. Norton. Well, are you new, or is that-
    Mr. May. No, they had a construct called the Gulf Coast 
Recovery Office that ran that operation out of Louisiana. And 
just recently, the Director Ward changed that relationship, and 
has given me the responsibility for that disaster for 
Mississippi, about two weeks ago.
    Ms. Norton. I hope that means that you've been so 
successful in dealing with respect to disputes, that they 
decided that you are--that's the biggest thing there. That's 
the biggest thing going, Mr. May, as far as I'm concerned.
    Mr. May. Yes, ma'am. I understand. And I know the 
arbitration piece is not set up for Mississippi, but it is set 
up for Louisiana----
    Ms. Norton. So that means you're under real pressure.
    Mr. May'. And I have been on the phone with the governor. 
We've been talking about projects that need to be turned, dirt 
projects that need--and we've been working. We've met with 
local officials in the Gulf Coast to talk about the fact this 
could be Mississippi's economic stimulus package, just get this 
money going. So, we-
    Ms. Norton. I don't know if this affected how much money--I 
think it sort of affected how much stimulus money both 
Mississippi and Louisiana got. I don't know why the federal 
government, trying to stay struggle ready, shouldn't have given 
a cent to people who have been sitting on billions of dollars 
for many months. I could not believe it when the amounts came 
forward at the hearings, which got us to move in this 
direction. So, Mr. May, 30 days, we want to know how much money 
is left. What mechanisms you are using to rapidly dispose of 
this backlog. I am not, as you well know, as a guardian of 
federal funds, I am not saying just to go out and spend money, 
because then it reverberates on you, and on us. Well, how come 
you paid that money to Mississippi when they clearly weren't 
ready to use the money, or they misused the money. So, the 
reason that I'm pressing is precisely because of stimulus, 
precisely because if we're talking about getting jobs for 
people, who has been jobless more than the people of 
Mississippi and Louisiana? So, in 30 days I want to know the 
status of these funds, what is the mechanism for disposing of 
those funds, and any information you can give us to restore our 
confidence, the confidence that was completely lost with the 
outstanding number--I understand you weren't there, but if you 
were moved, whether they moved it to your jurisdiction, I would 
take that as a compliment, that you can resolve it.
    Mr. May. Some of these issues are hung up on insurance 
issues, settlements, FEMA pays a portion, insurance company 
pays a portion, if they have insurance. One of the other issues 
in mitigation-
    Ms. Norton. Insurance issues of individuals. Are you 
talking about-
    Mr. May. No, ma'am, I was talking about the public 
projects, not the individual projects.
    Ms. Norton. No, see I'm interested in the public projects.
    Mr. May. Yes, ma'am.
    Ms. Norton. Charity Hospital couldn't have been insurance 
issues. The whole thing--the London Bridge fell down there. 
Some of it, and here you will have that in spades, because we 
have this question of wind versus water.
    Mr. May. Water.
    Ms. Norton. That has to do with housing, as I understand 
it. I'm interested in public projects.
    Mr. May. Right. And some of the other public projects or 
applications for mitigation grants have required cost-share. We 
approve a mitigation project for say the State of Mississippi 
for a particular local government, they have to come up with 
their cost-share. And that's difficult to do that sometimes, so 
there's monies sitting aside for mitigation that local 
governments cannot access then because they don't have their 
cost-share monies to make that match.
    Ms. Norton. Where local governments don't have the money, 
then we spent--you need to--then where is the State of 
Mississippi? I mean, I don't understand--see, that's what we 
don't want to hear. If Miami-Dade didn't have it, I would 
expect Florida not to let a whole lot of money go to waste, 
just sit there, with a deep recession, with people with no 
jobs. You've got a double reason wanting to get this money 
going, so I'm telling you, I am in no mood to hear excuses. 
Now, what is it, Rainwater? The one person I have heard since 
Katrina who had a problem solving approach looking at what he 
has as his disposal was this person who is charge of Louisiana. 
What's his name, Paul?
    Mr. May. Rainwater. It is. It's Rainwater.
    Ms. Norton. I don't know the--I'm a former law professor, 
and as I heard him, I would ask him hard questions, even 
hypothetical questions, and this is somebody who didn't have at 
his disposal anything more than anybody else when they began. 
What was so impressive, and he went down there without--he's in 
the National Guard, a lot of managerial experience. He had an 
analytical approach to questions. Disaggregate the problem, 
let's disaggregate the problem. Let's look at what we have 
here. Let's not look for bureaucratic obstacles. The sign posts 
of an obstacle are very clear that you can't cross.
    What really bothered me was that that administrative 
authority that FEMA had that it was not using. Some have said 
that we have enacted Post Katrina Act mostly because the Post 
Katrina Act simply tells FEMA to do what it already could do. 
You know, if you think you're crossing the line, all you've got 
to do is go to our Subcommittee or the Homeland Security 
Committee, and we will tell you if you're crossing the line, 
rather than say we didn't think we could do that. We don't 
think the law allows us to do that.
    Now, I understand that Florida spends a lot of its own 
money on mitigation. Is that the case?
    Mr. Almaguer. Well, one of the successes, and I would 
encourage most states to do this, FEMA has got a program that's 
called Enhanced Mitigation Program, which means after a 
disaster, states generally get 7.5 percent of the cost of that 
disaster for mitigation. It's a great success story.
    Ms. Norton. Oh, that's amazing.
    Mr. Almaguer. But, if you're a state that has enhanced 
mitigation, which means the federal government, FEMA has come 
in, evaluated your state programs, looked at your locals, and 
has blessed you for to be an enhanced state, which Florida now 
is as of last year, we get 20 percent of that disaster dollars 
towards mitigation. So, we recently got declared for the North 
Florida floods, those 20 percent, which now is a huge advantage 
to Florida, that we can work with locals, and to have governor 
statewide initiatives for mitigation, are great success stories 
in Florida. I believe only 20 states in the union actually have 
the enhanced mitigation.
    I would encourage every state in this country to have 
enhanced mitigation. There are dollars that are being left off 
the table post-disaster. But, to the point of mitigation, 
Florida has had, historically, a program called ``My Safe 
Florida'', which uses state dollars to go to the locals. One 
specific example is West Florida Coast Rebuild, which actually 
has rebuilt in hardened homes the entire envelope. Not just 
hey, we're going to give you some money for redoing your 
windows, but we've emphasized the importance of the entire 
envelope, strap down your roofs, harden the windows, the garage 
doors, the front doors. So, Florida has put millions of dollars 
on the table. But, more importantly, these years forward will 
have more federal dollars because of disasters to enhance 
mitigation efforts statewide.
    Ms. Norton. What you had to say about people leaving money 
on the table is really of interest to me. Mr. May, how come 
people are not picking-up these funds? Do you have any idea?
    Mr. May. It, primarily, is, every county that's in the 
plan, the program, has a mitigation plan. And in that plan, 
they identify projects for future disasters.
    Ms. Norton. Now, he said it's only 20 states?
    Mr. Almaguer. I'm aware of only 20 states that are enhanced 
mitigation states.
    Mr. May. There are some standards they have to meet, and 
some of the states have not met those standards to come into 
that program.
    Ms. Norton. I know that you're only in-charge of three 
southern states, but would you take it back to headquarters 
that we would like a report within 30 days of who are the 
states that have-
    Mr. May. Right. And I have six of mine that are in it, so 
I've got-
    Ms. Norton. Are already-
    Mr. May. Yes. Six of my eight states are in the enhanced 
program.
    Ms. Norton. It may be states that have experience.
    Mr. May. That's correct.
    Ms. Norton. Yes. But I, therefore, would like to know what 
states have, the amounts, and especially what the 20 would be. 
It looks you all account for a fair number of them.
    Final question is for Ms. Hagan. The bane of our existence 
has been transitioning. We've heard some discussion of it here, 
from temporary housing. Indeed, I understand we are at the end, 
Mr. May, that the Katrina Temporary Housing program was 
supposed to end literally as of today. Does that mean that all 
the families are out of FEMA housing as of today?
    Mr. May. No, ma'am. They're still in FEMA housing.
    Ms. Norton. What is going to happen then to those families 
still with the Housing program?
    Mr. May. The program will be extended. We're working with 
HUD to try to provide a bridge to place those people, using 
case work, and local assistance to provide a bridge for those 
individuals to get in appropriate housing. But, yes, it is a 
tremendous challenge.
    Ms. Norton. So, it's going to have to be extended for 
those--as long as you all can't find housing for people, you 
realize you're going to have to take responsibility for that.
    Mr. May. That's correct. We have to continue to work for 
them, work with them to get them to a point where they can move 
onto other housing.
    Ms. Norton. I need to know how many, within 30 days, how 
many people are still in housing as of today, when the Housing 
program was supposed to end, the status of those families that 
you expect--because if the program is supposed to end, I have 
to send the assume the money-- what do you-
    Mr. May. We will be giving notice to some families, I think 
in Mississippi we're giving notice, that they have two weeks to 
find alternate housing. And then, at that point in time, we 
will address the issue of their housing need----
    Ms. Norton. Good luck, Mr. May. Mr. May, you're new, but 
our hearing last year shows that those were mostly the most 
vulnerable people. They were the older people, I mean, really 
old. They were disabled people. They were people that somebody 
is going to have to place, not sort of bridge. You're going to 
have to find a place for people like that. Those are the only 
ones left.
    Mr. May. Yes, ma'am. That's why we need to work very 
strongly with HUD to see if these people are eligible for HUD 
housing vouchers to move them into more stabilized housing.
    Ms. Norton. We know they are. But we also know that there 
are long lines, and I don't know priorities they have. That's 
what I want to know in 30 days, what priorities, in your areas, 
what priorities do they have? We keep extending them. I just 
need to know how many of them are there in Mississippi. I want 
to know how many of them right now, how many as of the last 
time you extended, so I can see the progress that you're 
making.
    Mr. May. Yes, ma'am.
    Ms. Norton. Ms. Hagan, have you had any such-or, for that 
matter, the state and local officials here, have you had any 
such problems?
    Ms. Hagan. I'll start, and then pass it over to Mr. 
Almaguer.
    You know, when people are in a shelter environment, we're 
really planning to move them out of that sheltering environment 
into some sort of transitional housing. And it is a challenge, 
especially when there's not housing stock, especially when the 
schools need to reopen so we can get a community back to 
normal. So we would work with federal, state, and local 
government organizations to see what kind of housing is 
available, both transitional-
    Ms. Norton. Has it been a problem, or-
    Ms. Hagan. It's been a problem in different communities, at 
different times, depending upon the availability of 
transitional housing, and long-term housing.
    Ms. Norton. That's true. Red Cross is not a government 
funded organization. When you perform these services, how are 
you funded to perform the services? When you come straight into 
a community and you have to stay there longer, who funds it?
    Ms. Hagan. Well, we are primarily funded by the American 
people, not primarily funded by government.
    Ms. Norton. We know, at least in the United States, 
government, that we're the American people.
    Ms. Hagan. Yes. By donations, by voluntary donations of the 
American people. But if I could just say, as we look to long-
term recovery, in Florida we have a pretty strong system of 
long-term recovery organizations that is primarily made up of 
faith-based and non-governmental organizations to look at the 
people, like you were talking about in Mississippi, and help 
work them through, get them back into their community, and move 
forward. But that's where the partnership between government 
and non-governmental organizations is so critical, because 
everybody has a piece of the pie to bring to the table to try 
to help these people move forward.
    Ms. Norton. What has the state and city, I'm sorry, county 
representatives here. Are there people still in, if not 
trailers, I think you said not trailers, but not placed back in 
some kind of permanent housing from any recent disaster?
    Mr. Almaguer. I think we discussed there may be seven 
people or less in the State of Florida. Even though we had 57 
counties affected by the recent Presidential declaration of 
Tropical Storm Fay last year, we got hit with Ike and Gustav, 
most of those events did not cause widespread housing problems. 
So, anybody who's really still affected by the housing issue 
are people who have already been affected in the 2004-2005 
storm. So, if there are any, there's probably none, but just to 
not know the exact number, it's very small. And it's not our 
problem today. Probably, the bigger issue today is to continue 
working the recovery efforts for long-lasting storms.
    I mean, we talked a little bit about ice, Madam Chair. I 
think the most important visual effect for people to know is an 
iceberg. In an iceberg, what you can see above the surface is 
no more than 20 percent. That's response. That's the nice 
exciting thing that people like, and see. Recovery is that 80 
percent of that iceberg beneath the surface of the water that 
people forget about. People have been impacted, they've lost 
their jobs, they've lost their homes. And, in Florida, that's 
my full-time responsibility on behalf of the governor, so these 
long-term disasters, people are not forgotten. And that's what 
recovery is, that's the hard part about emergency management. 
It's not the response. People forget about that, and so FEMA's 
long-term success, when people ask about their ability to 
respond to disasters, I say FEMA's long-term success is to have 
more resources for getting dollars to states and locals in the 
recovery effort, and that will never happen fast enough.
    I'll tell you, with the leadership of Craig Fugate, and 
leadership of Phil May, I have trust in FEMA now. I will tell 
you that. And my governor feels the exact same way. We have 
leaders, we have people who know about how this works. They've 
been at the local level, the state level. Boots have been on 
the ground. But I'm going to tell you right now, it's about 
recovery.
    And, in closing, I will just tell you that I encourage the 
federal government, like you said, Madam Chair, to get more 
dollars for mitigation. This is no different than fire 
prevention. The day that there's no fires, is a great thing, 
which means a lot of people put a lot of dollars into sprinkler 
systems, standpipe systems, into homes and businesses so they 
don't burn down. This is no different, and so the more dollars 
that can harden locals, and the state, the better off all these 
states will be in future disasters.
    Ms. Norton. You've closed this hearing with some wise 
words, Mr. Almaguer, that recovery is the point, and mitigation 
is the other part.
    As much of a scandal as the evacuation debacle of Katrina 
was, the worst part surely was the aftermath. After the 
evacuation, people left on the rooftops. That's the part you 
see. I guess that's the tip of the iceberg. But then they 
developed catastrophe after catastrophe, the trailers, the 
long-term rebuilding, the recovery. And the answer to that, of 
course, is mitigation, mitigation, mitigation. But one thing 
that our experience and our coming to Florida as the first 
hearing of the season on hurricane season tells us, is that 
Florida is the model for the country. And Florida's experiences 
come out of what Florida could not control, that it is located 
where these disasters occur. And instead of sitting around 
waiting for the next one, the state here in Miami-Dade, has 
seen itself as the guard of the country, frankly, to be most 
proactive on disasters. We think you have much to teach us, not 
only in terms of disasters, natural disasters, but parts of the 
country where we must prepare even for disasters of the kind we 
saw in 9/11. We are poised for an all-hazards approach. That 
what you do to prepare for a hurricane, and there was even a 
tornado down here in recent years, what you do to prepare for 
one is essentially the same. What we're doing in the National 
Capitol region area to prepare in case there is, God forbid, 
some other attack on those parts of our country that would be 
highly targeted for some kind of terrorist attack is in a real 
sense no different from what you are doing. So I think we have 
a great deal to learn, and probably more to learn from Florida, 
especially South Florida, about an all-hazards approach than 
any other section of the country. I think people from the West 
Coast, who are petrified that there's going to be an earthquake 
need to come here. They've done a lot of mitigation, of course, 
but whether they've done enough, or whether they've had to go 
through some of what you had to go through, is something that 
they need to look at.
    I don't know of any other part of the country, there may be 
parts in the Midwest that have constant floods, but the people 
who had the ice storm in Kentucky, and Midwest, were facing a 
very different kind of hazard, one that was much harder to 
prepare for. But, in a real sense, the very same issues came 
up.
    I want to thank Mr. Diaz-Balart for recommending that we 
come here for our first hearing of the hurricane season. I 
particularly want to thank each and every one of you, because 
your testimony is valuable to us, as we recommend to the 
Administration, and as we contemplate whatever changes we ought 
to make in our own jurisdiction. This hearing is adjourned.
    [Whereupon, at 12:24 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T9949.006
    
    [GRAPHIC] [TIFF OMITTED] T9949.007
    
    [GRAPHIC] [TIFF OMITTED] T9949.008
    
    [GRAPHIC] [TIFF OMITTED] T9949.009
    
    [GRAPHIC] [TIFF OMITTED] T9949.010
    
    [GRAPHIC] [TIFF OMITTED] T9949.011
    
    [GRAPHIC] [TIFF OMITTED] T9949.012
    
    [GRAPHIC] [TIFF OMITTED] T9949.013
    
    [GRAPHIC] [TIFF OMITTED] T9949.014
    
    [GRAPHIC] [TIFF OMITTED] T9949.015
    
    [GRAPHIC] [TIFF OMITTED] T9949.016
    
    [GRAPHIC] [TIFF OMITTED] T9949.017
    
    [GRAPHIC] [TIFF OMITTED] T9949.018
    
    [GRAPHIC] [TIFF OMITTED] T9949.019
    
    [GRAPHIC] [TIFF OMITTED] T9949.020
    
    [GRAPHIC] [TIFF OMITTED] T9949.021
    
    [GRAPHIC] [TIFF OMITTED] T9949.022
    
    [GRAPHIC] [TIFF OMITTED] T9949.023
    
    [GRAPHIC] [TIFF OMITTED] T9949.024
    
    [GRAPHIC] [TIFF OMITTED] T9949.025
    
    [GRAPHIC] [TIFF OMITTED] T9949.026
    
    [GRAPHIC] [TIFF OMITTED] T9949.033
    
    [GRAPHIC] [TIFF OMITTED] T9949.034
    
    [GRAPHIC] [TIFF OMITTED] T9949.035
    
    [GRAPHIC] [TIFF OMITTED] T9949.036
    
    [GRAPHIC] [TIFF OMITTED] T9949.037
    
    [GRAPHIC] [TIFF OMITTED] T9949.038
    
    [GRAPHIC] [TIFF OMITTED] T9949.039
    
    [GRAPHIC] [TIFF OMITTED] T9949.027
    
    [GRAPHIC] [TIFF OMITTED] T9949.028
    
    [GRAPHIC] [TIFF OMITTED] T9949.029
    
    [GRAPHIC] [TIFF OMITTED] T9949.030
    
    [GRAPHIC] [TIFF OMITTED] T9949.031
    
    [GRAPHIC] [TIFF OMITTED] T9949.032

</pre></body></html>
